Office of Inspector General

Semiannual Report
to the Congress




                              October 1, 2011 – March 31, 2012
                                       Inspector General’s Statement




T
The Federal Deposit Insurance Corporation                  institutions and the FDIC’s acquisition and manage-
(FDIC) and the Office of Inspector General (OIG)           ment of securities obtained through receivership
continue to transition to a post-crisis period             activities. With available resources, we have also
and work with counterparts in the other regula-            been able to conduct reviews of some of the FDIC’s
tory agencies to help sustain and build upon a             internal business processes, involving for example
sense of restored stability and confidence.                information security, contracting, and conference
                                                           planning and spending. Results of our efforts in
Of special note, for the first time since July 2011,       these areas over the past 6 months are presented
the FDIC Board is operating with a full complement         in this report, and FDIC management officials have
of Members, several of whom are new to the FDIC.           taken responsive actions to both the monetary and
Mr. Martin Gruenberg continues to serve as Acting          nonmonetary recommendations we made to them.
Chairman of the Board. Mr. Tom Curry has assumed
a new position as Comptroller of the Currency,             Significantly, our office has been impacted by
but in that new capacity is still a Member of the          H.R. 2056, legislation that was enacted on January 3,
FDIC Board. Mr. Richard Cordray, Director of the           2012, and that calls for the FDIC Inspector General
Consumer Financial Protection Bureau, assumed              to conduct a comprehensive study on the impact
his role on the Board, and Messrs. Thomas Hoenig           of the failure of insured depository institutions and
and Jeremiah Norton were recently sworn in as              submit a report, along with any recommendations,
Members. Thus, a new group has assumed gover-              to the Congress not later than 1 year after the date
nance responsibilities at the FDIC, and the OIG looks      of enactment. The scope of the study must include
forward to working with them in support of the             institutions regulated by the FDIC, the Board of
successful accomplishment of the FDIC mission.             Governors of the Federal Reserve System (FRB), and
                                                           the Office of the Comptroller of the Currency. We
Given more stable economic conditions, the                 are coordinating our work with the Department of
number of bank failures has decreased over the             the Treasury and FRB OIGs and have assignments
past months. This downward trend, along with a             underway to examine specific aspects of shared-
change in the material loss review threshold under         loss agreements, risk management enforcement
the Dodd-Frank Act has substantially reduced the           actions, appraisals, loan workouts, and private
OIG’s workload in the realm of statutorily mandated        capital investments. Of additional importance,
failed bank reviews and has allowed us to refocus          along with the Treasury, FRB, and National Credit
resources on other areas of FDIC operations. Specifi-      Union Administration, we have been asked by the
cally, we have continued to examine some of the            Chairman of the Senate Banking Committee to
FDIC’s risk-sharing arrangements for managing and          review examination timelines, consistency, and
disposing of receivership assets—namely, shared-           appeals processes. We have again been coordinating
loss agreements and structured asset sales, looking        work with our fellow OIGs as we respond to the
at compliance with the agreements and at the               Committee’s request. This Congressional work is and
FDIC’s monitoring of the agreements. Given that            will continue to be resource-intensive, and our Office
the FDIC’s financial exposure in such agreements           of Audits and Evaluations is playing a key role in
is in the billions of dollars, it is important to ensure   carrying out the various assignments to support it.
the FDIC’s interests are protected to the maximum
extent possible. We reviewed other resolution and          Over the past 6-month period, our Office of
receivership matters during the reporting period           Investigations has continued to partner with law
as well, for example, with respect to private capital      enforcement colleagues in combating financial
investors interested in acquiring or investing in failed   institution fraud throughout the country. We report

                                                                                                                 1
on numerous investigative successes during the
reporting period, some involving former senior
officers and directors at our nation’s banks and other
professionals who have misused their positions
of trust to perpetrate fraud. Other cases involve
individuals across the country committing mort-
gage fraud by taking advantage of a distressed
housing market, thus undermining the strength of
the financial services industry and the economy.
 In closing, our current workload truly reflects our
dual responsibility to report independently to
both the head of the agency and the Congress. I
reaffirm our commitment to FDIC leadership and
the Congress as we carry out the OIG mission.
We appreciate corporate and Congressional
support of our office and will continue to make
every effort to conduct our work efficiently, effec-
tively, economically, and with utmost integrity.




Jon T. Rymer
Inspector General
April 2012




2
T    Table of Contents

    Inspector General’s Statement.......................................................................................1
    Abbreviations and Acronyms..........................................................................................4
    Highlights and Outcomes................................................................................................5
    Strategic Goal Areas

1   Supervision: Assist the FDIC to Ensure the Nation’s
    Banks Operate Safely and Soundly...............................................................................9

2   Insurance: Help the FDIC Maintain the Viability of the
    Insurance Fund..................................................................................................................23
    Consumer Protection: Assist the FDIC to Protect
3   Consumer Rights and Ensure Customer Data
    Security and Privacy.........................................................................................................25
    Receivership Management: Help Ensure that the FDIC
4   Efficiently and Effectively Resolves Failed Banks and
    Manages Receiverships..................................................................................................29
    Resources Management: Promote Sound Governance
5   and Effective Stewardship and Security of Human,
    Financial, Information Technology, and Physical Resources............................35
    OIG Resources Management: Build and Sustain a High-Quality Staff,
6   Effective Operations, OIG Independence, and
    Mutually Beneficial Working Relationships............................................................41
    Reporting Requirements...............................................................................................47
    Appendix 1: Information Required by the Inspector General Act
    of 1978, as amended.......................................................................................................48
    Appendix 2: Information on Failure Review Activity...........................................53
    Appendix 3: Peer Review Activity...............................................................................56
    Congratulations and Farewell......................................................................................58




                                                                                                                                         3
                        Abbreviations and Acronyms
    ADC	              acquisition, development, and construction
    AI	               acquiring institution
    ASB	              Atlantic Southern Bank
    CBRE	             CB Richard Ellis, Inc.
    BDO	              BDO USA, LLP
    CCB	              Colorado Capital Bank
    CEO	              Chief Executive Officer
    CFI	              Office of Complex Financial Institutions
    CFO	              Chief Financial Officer
    CIGFO	            Council of Inspectors General on Financial Oversight
    CIGIE	            Council of the Inspectors General on Integrity and Efficiency
    CRE	              commercial real estate
    CSDO	             collateral secured debt obligations
    DIF	              Deposit Insurance Fund
    DOI	              Department of the Interior
    Dodd-Frank Act	   Dodd-Frank Wall Street Reform and Consumer Protection Act
    DRR	              Division of Resolutions and Receiverships
    ECU	              Electronic Crimes Unit
    FBI	              Federal Bureau of Investigation
    FDI Act	          Federal Deposit Insurance Act
    FDIC	             Federal Deposit Insurance Corporation
    FIL	              Financial Institution Letter
    FISMA	            Federal Information Security Management Act
    FRB	              Board of Governors of the Federal Reserve System
     GPRA	            Government Performance and Results Act of 1993
    IG	               Inspector General
    IRS CID	          Internal Revenue Service Criminal Investigation Division
    IT	               Information Technology
    MDH	              Metro Dream Homes
    MLR	              Material Loss Review
    NIST	             National Institute of Standards and Technology
    OCC	              Office of the Comptroller of the Currency
    OIG	              Office of Inspector General
    OMB	              Office of Management and Budget
    ORE	              owned real estate
    OTS	              Office of Thrift Supervision
    P&A	              purchase and assumption
    P&I	              principal and interest
    PCA	              Prompt Corrective Action
    PCI	              private capital investor
    Plan	             Joint Implementation Plan
    RMS	              Division of Risk Management Supervision
    RTC	              Resolution Trust Corporation
    SAR	              Suspicious Activity Report
    SIGTARP	          Special Inspector General for the Troubled Asset Relief Program
    SLA	              Shared-Loss Agreement
    SOP	              Statement of Policy on Qualifications for Failed Bank Acquisitions
    SPB	              Security Pacific Bank
    TBW	              Taylor, Bean & Whitaker
4
                                    Highlights and
                                    Outcomes


The OIG works to achieve five strategic goals that      of less than the threshold of $200 million and deter-
are closely linked to the FDIC’s mission, programs,     mined whether unusual circumstances existed that
and activities, and one that focuses on the OIG’s       would warrant an in-depth review in those cases.
internal business and management processes.
                                                        Ongoing work in this goal area at the end of the
These highlights show our progress in meeting
                                                        reporting period included a number of assign-
these goals during the reporting period. Given our
                                                        ments in response to H.R. 2056. H.R. 2056, as
statutorily mandated workload involving reviews
                                                        amended, requires that the FDIC Inspector General
of failed financial institutions, a portion of our
                                                        conduct a comprehensive study on the impact of
work during the reporting period continued to
                                                        the failure of insured depository institutions and
focus on our first and second goals of assisting
                                                        submit a report, along with any recommenda-
the Corporation to ensure the safety and sound-
                                                        tions, to the Congress not later than 1 year after
ness of banks and the viability of the insurance
fund. However, based on the risks inherent in the       the date of enactment (i.e., by January 3, 2013). Our
resolution and receivership areas, we have shifted      work will include, among other items, reviewing
audit and evaluation resources to conduct work          aspects of the FDIC’s shared-loss agreements, risk
in support of our fourth goal and have completed        management enforcement actions, appraisals,
a number of assignments in those areas. We have         loan work-outs, and private capital investments.
devoted fewer resources to the goal area involving      With respect to investigative work, as a result of
consumer protection but anticipate future work in       cooperative efforts with U.S. Attorneys throughout
that regard. We completed several reviews of the        the country, numerous individuals were pros-
FDIC’s internal operations during the past 6-month      ecuted for financial institution fraud, and we also
period. A more in-depth discussion of OIG audits,       successfully combated a number of mortgage
evaluations, investigations, and other activities       fraud schemes. Our efforts in support of mortgage
in pursuit of all of our strategic goals follows.       fraud and other financial services working groups
                                                        also supported this goal. Particularly noteworthy
Strategic Goal 1                                        results from our casework include the sentencings
Supervision: Assist the FDIC to Ensure the              of a number of former senior bank officials and
Nation’s Banks Operate Safely and Soundly               bank customers involved in fraudulent activities
Our work in helping to ensure that the nation’s         that undermined the institutions and, in some
banks operate safely and soundly takes the form of      cases, contributed to the institutions’  failure. For
audits, investigations, evaluations, and extensive      example, the former president and chief execu-
communication and coordination with FDIC divi-          tive officer of Orion Bank, Naples, Florida, pleaded
sions and offices, law enforcement agencies, other      guilty to charges of conspiring to commit bank
financial regulatory OIGs, and banking industry         fraud, misapply bank funds, make false entries
officials. During the reporting period, we completed    in the bank’s books and records, and obstruct a
three reports on institutions whose failures resulted   bank examination. In another case, the leader of a
in material losses to the Deposit Insurance Fund. In    large-scale identity theft ring and a co-conspirator
each review, we analyzed the causes of failure and      pleaded guilty for their roles in a fraud enterprise
the FDIC’s supervision of the institution. We also      that defrauded multiple credit card companies,
completed failure reviews of institutions whose         banks, and lenders out of about $4 million. In
failures caused losses to the Deposit Insurance Fund    connection with our previously reported case
                                                                                                                5
involving the failure of Colonial Bank and Taylor,      Strategic Goal 3
Bean, & Whitaker (TBW), a private mortgage              Consumer Protection: Assist the FDIC to
company, an eighth person, the former chief             Protect Consumer Rights and Ensure Customer
financial officer of TBW pleaded guilty to conspiracy   Data Security and Privacy
to commit bank and wire fraud and making false
statements for his role in a scheme contributing to     We did not devote audit or evaluation resources to
the failures of Colonial Bank and TBW. In another       specific consumer protection matters during the
case, an Arkansas attorney was sentenced to             past 6-month period because for the most part, we
121 months of incarceration and was ordered             continued to devote those resources to FDIC activi-
to pay $33.8 million in restitution for defrauding      ties in the resolution and receivership realms and
nine financial institutions of nearly $50 million.      to material loss review-related work. Our Office of
                                                        Investigations, however, supports this goal through
Also of note during the reporting period were           its work. For example, during the reporting period,
several successful mortgage fraud cases, one in         as a result of an investigation, a co-conspirator in a
particular involving the sentencing of the former       securities fraud scheme involving misrepresentation
chief executive officer of Metro Dream Homes            of FDIC insurance was sentenced to 54 months in
who was sentenced to serve 150 years in prison          prison and ordered to pay restitution of nearly $13
for his role in a massive mortgage fraud scheme         million. His co-conspirator pleaded guilty to money
that promised to pay off homeowners’ mort-              laundering. In a similar case, the former owner of
gages but left them to fend for themselves in           two AmeriFirst companies was convicted in a fraud
the end. More than 1,000 duped investors in the         scheme that victimized more than 500 inves-
program invested a total of about $78 million. He       tors—many retired and living in Texas and Florida.
was ordered to pay restitution of $34.3 million.
                                                        Also of note, our Electronic Crimes Unit responded
The Office of Investigations also continued its         to instances where fraudulent emails purport-
close coordination and outreach with the Divi-          edly affiliated with the FDIC were used to entice
sion of Risk Management Supervision (RMS), the          consumers to divulge personal information
Division of Resolutions and Receiverships, and          and/or make monetary payments. The OIG also
the Legal Division by way of attending quarterly        continued to respond to a growing number of
meetings, regional training forums, and regularly       inquiries from the public, received both through
scheduled meetings with RMS and the Legal Divi-         our Hotline and through other channels. We
sion to review Suspicious Activity Reports and          addressed about 250 such inquiries during the
identify cases of mutual interest. (See pages 9-22.)    past 6-month period. (See pages 25-28.)

Strategic Goal 2                                        Strategic Goal 4
Insurance: Help the FDIC Maintain the Viability         Receivership Management: Help Ensure that
of the Insurance Fund                                   the FDIC Efficiently and Effectively Resolves
We did not conduct specific assignments to address      Failed Banks and Manages Receiverships
this goal area during the reporting period. However,    We completed several assignments in this goal area
our failed bank work fully supports this goal, as       during the reporting period. We issued an overall
does the investigative work highlighted above in        evaluation of the FDIC’s monitoring of shared-loss
strategic goal 1. In both cases, our work can serve     agreements and made five recommendations to
to prevent future losses to the insurance fund by       strengthen the program. We also completed audits
way of findings and observations that can help to       of two shared-loss agreements between the FDIC
prevent future failures, and the deterrent aspect of    and acquiring institutions in which we identified a
investigations and the ordered restitution that may     total of $17 million in questioned costs related to
help to mitigate an institution’s losses and losses     questioned loss claims and made additional recom-
to the Deposit Insurance Fund. (See pages 23-24.)       mendations to enhance the FDIC’s monitoring and



6
oversight of the acquiring institutions. With respect     we issued the results of a third coordinated review
to our audits of the shared-loss agreements, FDIC         of the status of the implementation activities of
management agreed with the reported monetary              the Joint Implementation Plan prepared by the
benefits and is taking action on other nonmon-            FRB, the FDIC, the Office of the Comptroller of the
etary recommendations to address our concerns.            Currency (OCC), and the Office of Thrift Supervi-
                                                          sion (OTS). We reported that FRB, FDIC, OCC, and
We completed a review of the FDIC’s qualification
                                                          OTS had substantially implemented the actions in
process for private capital investors interested in
                                                          the Joint Implementation Plan that were necessary
acquiring or investing in failed depository institu-
                                                          to transfer OTS functions, employees, funds, and
tions and made a recommendation to improve
                                                          property to FRB, FDIC, and OCC, as appropriate.
documentation of approvals and analyses. Finally,
we audited the FDIC’s acquisition and manage-             We promoted integrity in FDIC internal opera-
ment of securities obtained through receivership          tions through ongoing OIG Hotline and other
activities, in which we identified $9.8 million in        referrals and coordination with the FDIC’s
questioned costs and made additional recom-               Divisions and Offices, including the Ethics
mendations for control improvements.                      Office, as warranted. (See pages 35-40.)
From an investigative standpoint, our Electronic          Strategic Goal 6
Crimes Unit continued its efforts to support              OIG Resources Management: Build and
investigative activities at bank closings. Addition-
                                                          Sustain a High-Quality OIG Staff, Effective
ally, the Electronic Crimes Unit is participating
                                                          Operations, OIG Independence, and Mutually
in a corporate project related to efficiently and
effectively collecting and preserving electronic          Beneficial Working Relationships
data at bank closings. (See pages 29-34.)                 To ensure effective and efficient management of
                                                          OIG resources, among other activities, we perma-
Strategic Goal 5                                          nently filled our Assistant Inspector General for
Resources Management: Promote Sound                       Management position. We subsequently focused
Governance and Effective Stewardship and                  on a number of initiatives to monitor and track
Security of Human, Financial, IT, and Physical            OIG spending, particularly costs involved in
Resources                                                 travel, and to explore options for a better system
                                                          to capture investigative cases. We also provided
In support of this goal area, we issued the results       our FY 2013 budget to cognizant Congres-
of our 2011 review under the Federal Information          sional committees. This budget reflects $34.6
Security Management Act, making seven recom-              million to support 130 full-time equivalents.
mendations in the areas of plans of action and
milestones, remote access management, identity            We conducted several internal quality assess-
and access management, and contractor systems.            ment reviews to ensure quality work. We oversaw
In a billing review of an FDIC contract for real estate   contracts with qualified firms to provide audit
management and marketing services, we ques-               and evaluation services to the OIG to supplement
tioned $398,227 and provided observations to              our efforts and provide additional subject-matter
enhance the economy, efficiency, and effectiveness        expertise. We continued use of the Inspector
of similar existing or future contracts. Management       General feedback form for audits and evalua-
disallowed $42,015 but decided not to pursue              tions that focuses on overall assignment quality
projected questioned costs of $356,212. Our work          elements, including time, cost, and value.
on FDIC conference-related activities and expenses,       We encouraged individual growth through profes-
conducted at the request of the Acting Chairman,          sional development by supporting individuals in
identified opportunities to strengthen policies and       our office pursuing certified public accounting and
reduce costs. The FDIC took immediate responsive          other professional certifications. We also employed
action. In connection with the Dodd-Frank Act,            college interns on a part-time basis to assist us


                                                                                                                7
in our work. We supported an OIG staff member               cial statements, we provided comments on the
attending a graduate school of banking to further           risk of fraud at the FDIC to the U.S. Government
his expertise and knowledge of the complex                  Accountability Office. We provided the OIG’s 2012
issues in the banking industry and supported                assurance statement to the Acting Chairman
staff taking FDIC leadership training courses.              regarding our efforts to meet internal control
                                                            requirements. We also participated regularly
Our office continued to foster positive stakeholder         at meetings of the National Risk Committee
relationships by way of Inspector General and other         to further monitor risks at the Corporation
OIG executive meetings with senior FDIC execu-              and tailor OIG work accordingly. We shared
tives; presentations at Audit Committee meetings;           OIG perspectives with Corporation’s Chief Risk
congressional interaction; coordination with finan-         Officer, who is charged with assisting the FDIC
cial regulatory OIGs, other members of the Inspector        Board and senior management in identifying
General community, other law enforcement officials,         risks facing the Corporation and in setting the
and the U.S. Government Accountability Office. The          Corporation’s risk management objectives
Inspector General served in key leadership roles as         and direction. In keeping with the Reports
the Chair of the Council of the Inspectors General          Consolidation Act of 2000, we provided our
on Integrity and Efficiency Audit Committee; Vice           assessment of management and performance
Chair of the Council of Inspectors General on Finan-        challenges facing the Corporation for inclu-
cial Oversight, as established by the Dodd-Frank            sion in its annual report. (See pages 41-45.)
Act; and as a Member of
the Comptroller General’s
Yellow Book Advisory Board.
                                   Significant Outcomes
Senior OIG executives were         (October 2011 – March 2012)
speakers at a number of            Audit and Evaluation Reports Issued                                                    13
professional organization
                                   Questioned Costs                                                               $27,267,051
and government forums, for
example those sponsored            Nonmonetary Recommendations                                                            17
by the American Institute of       Investigations Opened                                                                  36
Certified Public Accountants,
American Conference Insti-         Investigations Closed                                                                  34
tute, Department of Justice,       OIG Subpoenas Issued                                                                    6
FDIC Divisions and Offices,        Judicial Actions:
and international organiza-
tions sponsored by the State       	Indictments/Informations                                                              53
Department. The OIG partici-     	Convictions                                                                             46
pated in corporate diversity
                                 	Arrests                                                                                 27
events and on the Chair-
man’s Diversity Advisory         OIG Investigations Resulted in:
Council. We continued to         	   Fines of                                                                       $275,300
use our public inquiry intake
                                 	   Restitution of                                                              $400,291,208
system and maintained and
updated the OIG Web site to      	   Asset Forfeitures of                                                          $2,777,154
respond to the public and        Total                                                                          $403,343,662
provide easily accessible
information to stakeholders      Cases Referred to the Department of Justice (U.S. Attorney)                              23
interested in our office and     Cases Referred to FDIC Management                                                         1
the results of our work.         Proposed Regulations and Legislation Reviewed                                             9
In the area of risk manage-      Proposed FDIC Policies Reviewed                                                           6
ment, in connection with
SAS 99 and the annual            Responses to Requests Under the Freedom of Information Act                                7
audit of the FDIC’s finan-



8
8
               Strategic Goal 1
               The OIG Will Assist the FDIC to
               Ensure the Nation’s Banks Operate
               Safely and Soundly
                                                                                                  1
T
The Corporation’s supervision program promotes
the safety and soundness of FDIC-supervised
insured depository institutions. The FDIC is the
primary federal regulator for approximately 4,600
FDIC-insured, state-chartered institutions that are
not members of the FRB—generally referred to
as “state non-member” institutions. Historically,
the Department of the Treasury (the Office of the
                                                          requires financial institutions to keep records
                                                          and file reports on certain financial transactions.
                                                          An institution’s level of risk for potential terrorist
                                                          financing and money laundering determines the
                                                          necessary scope of a Bank Secrecy Act examination.
                                                          The passage of the Dodd-Frank Act brought about
                                                          significant organizational changes to the FDIC’s
                                                          supervision program. That is, the FDIC Board of
Comptroller of the Currency (OCC) and the Office          Directors approved the establishment of an Office
of Thrift Supervision (OTS)) or the FRB have super-       of Complex Financial Institutions (CFI) and a Divi-
vised other banks and thrifts, depending on the           sion of Depositor and Consumer Protection, and
institution’s charter. The winding down of the OTS        the Division of Supervision and Consumer Protec-
under the Dodd-Frank Act resulted in the transfer of      tion was renamed the Division of Risk Management
supervisory responsibility for about 60 state-char-       Supervision (RMS). CFI continues to evolve and is
tered savings associations to the FDIC, all of which      focusing on overseeing bank holding companies
are considered small and that have been absorbed          with more than $100 billion in assets and their
into the FDIC’s existing supervisory program. About       corresponding insured depository institutions. CFI is
670 federally chartered savings associations were         also responsible for non-bank financial companies
transferred to the OCC. As insurer, the Corporation       designated as systemically important by the Finan-
also has back-up examination authority to protect         cial Stability Oversight Council, of which the FDIC
the interests of the Deposit Insurance Fund (DIF)         is a voting member. CFI and RMS will coordinate
for about 3,380 national banks, state-chartered           closely on all supervisory activities for insured state
banks that are members of the FRB, and those              non-member institutions that exceed $100 billion
savings associations now regulated by the OCC.            in assets, and RMS is responsible for the overall
The examination of the institutions that it regu-         Large Insured Depository Institution program.
lates is a core FDIC function. Through this process,      Prior to passage of the Dodd-Frank Act, in the
the FDIC assesses the adequacy of management              event of an insured depository institution failure,
and internal control systems to identify, measure,        the Federal Deposit Insurance (FDI) Act required
monitor, and control risks; and bank examiners            the cognizant OIG to perform a review when the
judge the safety and soundness of a bank’s                DIF incurs a material loss. Under the FDI Act, a loss
operations. The examination program employs               was considered material to the insurance fund if it
risk-focused supervision for banks. According to          exceeded $25 million and 2 percent of the failed
examination policy, the objective of a risk-focused       institution’s total assets. With the passage of Dodd-
examination is to effectively evaluate the safety and     Frank Act, the loss threshold was increased to $200
soundness of the bank, including the assessment of        million through December 31, 2011. The FDIC
risk management systems, financial condition, and         OIG performs the review if the FDIC is the primary
compliance with applicable laws and regulations,          regulator of the institution. The Department of
while focusing resources on the bank’s highest risks.     the Treasury OIG and the OIG at the FRB perform
Part of the FDIC’s overall responsibility and authority   reviews when their agencies are the primary regula-
to examine banks for safety and soundness relates         tors. These reviews identify what caused the material
to compliance with the Bank Secrecy Act, which            loss, evaluate the supervision of the federal regula-
                                                                                                                9
tory agency (including compliance with the Prompt         When investigating instances of financial institution
Corrective Action (PCA) requirements of the FDI Act),     fraud, the OIG also defends the vitality of the FDIC’s
and generally propose recommendations to prevent          examination program by investigating associated
future failures. Importantly, under the Dodd-Frank        allegations or instances of criminal obstruction
Act, the OIG is now required to review all losses         of bank examinations and by working with U.S.
incurred by the DIF under the $200 million threshold      Attorneys’ Offices to bring these cases to justice.
to determine (a) the grounds identified by the
                                                          The OIG’s investigations of financial institution
state or Federal banking agency for appointing the
                                                          fraud currently constitute about 90 percent of
Corporation as receiver and (b) whether any unusual
                                                          the OIG’s investigation caseload. The OIG is also
circumstances exist that might warrant an in depth
                                                          committed to continuing its involvement in inter-
review of the loss. The OIG conducts and reports on
                                                          agency forums addressing fraud. Such groups
material loss reviews (MLR) and in-depth reviews of
                                                          include national and regional bank fraud, check
failed FDIC-supervised institutions, as warranted,
                                                          fraud, mortgage fraud, cyber fraud, identity theft,
and continues to review all failures of FDIC-super-
                                                          and anti-phishing working groups. Additionally, the
vised institutions for any unusual circumstances.
                                                          OIG engages in industry outreach efforts to keep
The number of institutions on the FDIC’s “Problem         financial institutions informed on fraud-related
List” as of December 31, 2011 was 813, indi-              issues and to educate bankers on the role of the
cating a probability of more failures to come and         OIG in combating financial institution fraud.
an additional asset disposition workload. Total
                                                          To assist the FDIC to ensure the nation’s
assets of problem institutions were $319.4 billion.
                                                          banks operate safely and soundly, the OIG’s
Importantly, however, the number of institu-
                                                          2012 performance goals are as follows:
tions on the Problem List continues to fall—and
total assets of problem institutions do likewise.           •	Help ensure the effectiveness and efficiency of
                                                              the FDIC’s supervision program.
While the OIG’s audits and evaluations address
various aspects of the Corporation’s supervision and        •	Investigate and assist in prosecuting Bank
examination activities, through their investigations          Secrecy Act violations, money laundering,
of financial institution fraud, the OIG’s investiga-          terrorist financing, fraud, and other financial
tors also play a critical role in helping to ensure the       crimes in FDIC-insured institutions.
nation’s banks operate safely and soundly. Because
fraud is both purposeful and hard to detect, it
can significantly raise the cost of a bank failure,
                                                          OIG Work in Support of Goal 1
and examiners must be alert to the possibility            The OIG issued three reports during the reporting
of fraudulent activity in financial institutions.         period in support of our strategic goal of helping
                                                          to ensure the safety and soundness of the nation’s
The OIG’s Office of Investigations works closely with
                                                          banks. These reports communicated the results
FDIC management in RMS and the Legal Division to
                                                          of MLRs of three failed institutions regulated by
identify and investigate financial institution crime,
                                                          the FDIC. We also completed failure reviews of
especially various types of fraud. OIG investigative
                                                          additional failures to determine whether unusual
efforts are concentrated on those cases of most
                                                          circumstances existed to pursue an in-depth
significance or potential impact to the FDIC and its
                                                          review. Appendix 2 in this report presents the
programs. The goal, in part, is to bring a halt to the
                                                          results of the failure reviews that we conducted.
fraudulent conduct under investigation, protect
the FDIC and other victims from further harm, and         To provide readers a sense of the findings in our
assist the FDIC in recovery of its losses. Pursuing       MLRs, we have summarized the results of one
appropriate criminal penalties not only serves            MLR conducted during the reporting period in
to punish the offender but can also deter others          this report, that of Colorado Capital Bank. We
from participating in similar crimes. Our criminal        also briefly comment on the other two institu-
investigations can also be of benefit to the FDIC in      tion failures and corresponding reports issued,
pursuing enforcement actions to prohibit offenders        each of which is similar in nature to our results
from continued participation in the banking system.       in the Colorado Capital Bank MLR. In each case,
10
our objectives in conducting the reviews were to       ment adequate concentration risk management
determine the causes of the institution’s failure      controls, such as prudent ADC loan limits or port-
and the resulting material loss to the DIF and         folio-level stress testing. CCB also failed to maintain
evaluate the FDIC’s supervision of the institu-        capital at levels that were commensurate with its
tions, including the FDIC’s implementation of the      risk profile, reducing the bank’s ability to absorb
PCA provisions of section 38 of the FDI Act. Our       losses in the event of a sustained downturn in the
most recent MLRs continue to validate earlier-         real estate market. CCB relied extensively on non-
identified causes of failure and the nature and        core funds, especially brokered deposits, Internet
extent of the FDIC’s supervisory activities.           deposits, Federal Home Loan Bank advances,
From an investigative perspective, we also include     and capital injections from its parent holding
case write-ups involving fraud in both open and        company, to support its loan growth. Access to
closed institutions. As in the past, we also discuss   non-core funding became limited when the bank’s
a number of our mortgage-fraud related inves-          financial condition deteriorated, straining the
tigations. Importantly, our results would not be       institution’s liquidity position. Finally, lax lending
possible without the collaboration and assis-          practices, particularly when the institution’s lending
tance of our colleagues at the FDIC and our law        markets declined, contributed to CCB’s problems.
enforcement partners throughout the country.           Specifically, the Board of Directors and manage-
                                                       ment failed to promptly recognize deteriora-
Material Loss Review of Colorado Capital               tion in the bank’s loan portfolio and took certain
Bank, Castle Rock, Colorado                            actions that further elevated CCB’s risk profile.
On July 8, 2011, the Colorado Division of Banking      During 2007, economic conditions in CCB’s primary
closed Colorado Capital Bank (CCB), and the FDIC       lending markets began to decline. By year-end
was appointed receiver. On August 17, 2011, the        2009, the quality of CCB’s loan portfolio had
FDIC notified the OIG that CCB’s total assets at       deteriorated significantly, with the majority of
closing were $681.8 million and that the estimated     problems centered in ADC loans. Further deterio-
loss to the DIF was $283.8 million. The FDIC OIG       ration occurred in 2010 and 2011. The associated
engaged KPMG LLP to conduct an MLR of CCB.             provisions for loan losses depleted CCB’s earn-
                                                       ings, eroded its capital, and strained its liquidity.
By way of background, CCB was established in
                                                       The Colorado Division of Banking closed CCB on
1998 under the name of Bank West, which was
                                                       July 8, 2011 because the institution was unable to
a subsidiary of Bank West Holdings Inc., Castle
                                                       raise sufficient capital to support its operations.
Rock, Colorado. In August 2003, a newly formed
holding company, BankVest Inc., took control of        The FDIC’s Supervision of CCB: The FDIC, in
Bank West Holdings Inc. BankVest Inc. was the          coordination with the Colorado Division of Banking,
surviving entity and had a 100-percent ownership       provided ongoing supervisory oversight of CCB
interest in the bank. On May 15, 2005, the bank        through regular onsite examinations, visitations,
changed its name to Colorado Capital Bank. The         and various offsite monitoring activities. Through
change in control resulted in significant changes      its supervisory efforts, the FDIC identified risks in
to the composition of the bank’s Board of Direc-       the bank’s operations and brought these risks to
tors and senior management team. The change            the attention of the institution’s Board of Direc-
also resulted in a new business strategy focused on    tors and management through examination and
aggressive growth through commercial real estate       visitation reports, correspondence, and supervi-
(CRE) lending, especially acquisition, development,    sory actions. Such risks included concerns with
and construction (ADC) lending, in Colorado.           Board of Directors and management oversight,
                                                       the bank’s heavy concentrations in CRE and ADC
Causes of Failure and Material Loss: CCB failed
                                                       loans, less than satisfactory earnings, reliance on
primarily because its Board of Directors and
management did not effectively manage the risks        non-core funding sources, and weak loan under-
associated with the institution’s aggressive loan      writing and credit administration practices.
growth and resulting heavy concentrations in CRE       Like many institutions that failed in recent years,
and ADC loans. Notably, the bank did not imple-        CCB developed a significant exposure to CRE and
                                                                                                             11
ADC loans at a time when the bank’s financial           RMS issued a 2009 FIL, entitled, The Use of Volatile
condition and lending markets were generally            or Special Funding Sources by Financial Institu-
favorable. This exposure made the bank vulnerable       tions That are in a Weakened Condition. According
to a sustained downturn in the real estate market.      to RMS, this FIL heightened its supervision of
In retrospect, a more forward-looking supervisory       institutions with aggressive growth strategies or
approach to the risk profile and weak risk manage-      excessive reliance on volatile funding sources.
ment practices identified by examiners during
earlier examinations may have been warranted,           Similar Results in Two Additional MLRs
considering CCB’s significant exposure to CRE and
                                                        In our two other MLRs, we found similar circum-
ADC loans and their associated vulnerability to
                                                        stances with respect to the failures. Atlantic
economic cycles, rapid loan growth supported by
                                                        Southern Bank, Macon, Georgia, (ASB) had total
non-core funds, lack of concentration risk manage-
                                                        assets of $726 million at the time of closing and
ment practices, and capital levels in relation to its
                                                        caused an estimated loss to the DIF of $273.5
risk profile. Examiners made a number of sugges-
                                                        million. We determined that ASB failed primarily
tions and recommendations to address CCB’s risk
                                                        because its Board of Directors and management
management practices during the 2004-2008
                                                        did not effectively manage the risks associated
examinations. However, the actions taken by the
                                                        with the institution’s aggressive growth and heavy
Board of Directors and management to address
                                                        concentration in CRE loans, particularly ADC loans.
the suggestions and recommendations were not
                                                        Notably, ASB did not maintain capital at levels that
adequate. In addition, the FDIC and the Colorado
                                                        were commensurate with the increasing risk in its
Division of Banking issued a Memorandum of
                                                        loan portfolio, reducing the institution’s ability to
Understanding in July 2009 and a Consent Order
                                                        absorb losses due to unforeseen circumstances. Lax
in September 2010. However, by that time, the
                                                        oversight of the lending function also contributed
institution’s lending markets were rapidly dete-
riorating, making remedial efforts difficult.           to the asset quality problems that developed when
                                                        economic conditions in ASB’s lending markets dete-
The FDIC has taken a number of actions to               riorated. Specifically, the bank exhibited weak ADC
enhance its supervision program based on                loan underwriting, credit administration, and related
the lessons learned from failures during the            monitoring practices. Further, ASB relied on non-
financial crisis. Such actions include instituting      core funding sources, especially brokered deposits,
a training initiative for examiners on forward-         to support its lending activities and maintain
looking supervision and issuing additional              adequate liquidity. These funding sources became
supervisory guidance on CRE and ADC concen-             restricted when ASB’s credit risk profile deterio-
trations and funds management practices.                rated, straining the institution’s liquidity position.
Based on the supervisory actions taken with             ASB’s heavy concentration in ADC loans, coupled
respect to CCB, the FDIC properly implemented           with weak risk management practices, made the
the applicable PCA provisions of section 38.            institution vulnerable to a sustained downturn in
In the written response to our report, the RMS          the real estate market. During 2007, conditions in
Director reiterated the causes of failure and the       ASB’s primary lending areas began to decline, but
supervisory activities described in the report.         notably, ASB’s assets increased by $96 million (or
Further, RMS stated that it has recognized the          14 percent) during the first 6 months of 2008. By
threat that institutions with high-risk profiles,       year-end 2008, the quality of ASB’s loan portfolio
such as CCB, pose to the DIF and issued to FDIC-        had deteriorated significantly, with the majority of
supervised institutions a 2008 Financial Institution    problems centered in ADC loans. Further deteriora-
Letter (FIL), entitled, Managing Commercial Real        tion occurred in 2009. The associated provisions
Estate Concentrations in a Challenging Environment.     for loan losses depleted ASB’s earnings, eroded
This FIL re-emphasized the importance of robust         its capital, and strained its liquidity. The Georgia
credit risk management practices for institutions       Department of Banking and Finance closed ASB on
with concentrated CRE exposures and set forth           May 20, 2011 because the institution was unable
broad supervisory expectations. Additionally,           to raise sufficient capital to support its operations.
12
As for the failure of Bank of Choice, Greeley,           The cases discussed below are illustrative of
Colorado, its total assets at closing were $979.4        some of the OIG’s most important investiga-
million and the estimated loss to the DIF was $213.6     tive success during the reporting period. These
million. Similar to the other MLRs, in this instance     cases reflect the cooperative efforts of OIG
we found that BOC failed primarily because the           investigators, FDIC divisions and offices, U.S.
Boards of Directors and management of BOC and            Attorneys’ Offices, and others in the law enforce-
its predecessor banks did not effectively manage         ment community throughout the country.
the risks associated with heavy concentrations           A number of our cases during the reporting period
in CRE and ADC loans. Among other things, the            involve bank fraud, wire fraud, embezzlement, iden-
Boards and management did not establish prudent          tity theft, and mortgage fraud. Many involve former
CRE and ADC loan concentration limits or main-           senior-level officials and customers at financial
tain capital at levels that were commensurate            institutions who exploited internal control weak-
with the risk in the banks’ loan portfolios. Again,      nesses and whose fraudulent activities harmed the
lax lending practices also contributed to the asset      viability of the institutions and ultimately contrib-
quality problems that developed when economic            uted to losses to the DIF. The OIG’s success in all such
conditions in BOC’s lending markets deteriorated.        investigations contributes to ensuring the continued
BOC’s risk profile was further elevated by its reli-     safety and soundness of the nation’s banks.
ance on non-core funding sources, in this case
brokered deposits, large time deposits, and Federal      Successful Bank Fraud Cases
Home Loan Bank advances, which were used by
BOC’s predecessor banks to support loan growth           Bank President Pleads Guilty and Others Are
and operations. These funding sources became             Sentenced for Their Roles in Orion Bank Fraud
restricted when BOC’s financial condition deterio-       Scheme
rated, straining the institution’s liquidity position.   On February 3, 2012, the former president and chief
As noted above, during 2007, conditions in the           executive officer (CEO) of Orion Bank, Naples, FL,
Colorado real estate market began to decline. By         pleaded guilty to a three-count criminal Informa-
year-end 2009, the quality of BOC’s loan portfolio       tion in which he was charged with conspiring to
had deteriorated significantly, with the majority of     commit bank fraud, misapply bank funds, make
problems centered in CRE and ADC loans. BOC was          false entries in the bank’s books and records, and
impacted by further deterioration that occurred          obstruct a bank examination. The charges relate to
in 2010. The associated provisions for loan losses       his role in a scheme to make $82 million in loans
depleted BOC’s earnings, eroded its capital, and         to straw borrowers acting on behalf of an Orion
strained its liquidity. The Colorado Division of         Bank borrower who had reached the bank’s legal
Banking closed BOC on July 22, 2011 because the          lending limit. Additionally, the loans concealed $15
institution was unable to raise sufficient capital to    million in bank funds to be used for the borrower
support its operations.                                  to purchase Orion stock in violation of banking
                                                         laws and regulations. Orion Bank proceeded to
Successful OIG Investigations Uncover                    fund the loan transactions even though the former
Financial Institution Fraud                              president and CEO and two other bank officers (his
As mentioned previously, the OIG’s Office of             co-conspirators) became aware prior to the loans
                                                         closing that the borrower’s entire loan relation-
Investigations’ work focuses largely on fraud that
                                                         ship, which was already in excess of $40 million,
occurs at or impacts financial institutions. The
                                                         was based on fraudulent financial documents.
perpetrators of such crimes can be those very
individuals entrusted with governance respon-            According to the plea agreement, the individuals
sibilities at the institutions—directors and bank        involved in this case conspired to mislead state and
officers. In other cases, individuals providing          federal regulators to believe that Orion Bank was
professional services to the banks, others               in a better capital position than it actually was. The
working inside the bank, and customers them-             conspiracy had two objectives: (1) to finance the
selves are principals in fraudulent schemes.             sale of promissory notes secured by mortgages held
                                                                                                              13
by Orion Bank on distressed properties, thereby          participation in the fraud. The former executive vice
creating the illusion that non-performing loans          president was sentenced to 2 1/2 years in prison.
were performing loans and (2) to conceal the             The former senior vice president was sentenced to 2
financing for the sale of Orion Bancorp, Inc. stock to   years in prison. The primary borrower was sentenced
a borrower, thus creating the illusion of a legitimate   to 5 1/2 years in prison. The former bank officers
capital infusion into the bank. The conspirators         were ordered to pay $33,512,618 in restitution to
accomplished these objectives by falsifying the          the FDIC. The court ordered the borrower to pay
books and records of Orion Bank and deceiving            restitution to the FDIC in the amount of $65,214,491.
state and federal regulators over a period of 7          Responsible Agencies: This is a joint investigation by the Federal
months, from May 2009 until November 13, 2009.           Bureau of Investigation (FBI), the Internal Revenue Service Criminal
Based upon these transactions and other actions by       Investigation Division (IRS CID), FRB OIG, Special Inspector General
                                                         for the Troubled Asset Relief Program (SIGTARP), and FDIC OIG. The
the bank, the FRB issued a Cease and Desist Order        case is being prosecuted by the U.S. Attorney’s Office for the Middle
to Orion Bank on September 18, 2009. The Florida         District of Florida.
Office of Financial Regulation closed Orion Bank
on November 13, 2009, and appointed the FDIC as          Leader of Large-Scale Identity Theft Ring and
receiver.                                                Co-conspirator Plead Guilty for Roles in Fraud
By way of background, in 2009, Orion Bank was in         Enterprise
danger of being declared “critically undercapital-       During the reporting period, the leader of a
ized” by the bank’s primary regulator, the FRB. The      fraud ring engaging in identity theft and finan-
former president and CEO declared that the bank          cial crimes that have led to charges against 54
was in the process of raising $75 million in addi-       individuals admitted to directing the large-scale,
tional capital. After unsuccessful attempts to raise     sophisticated criminal enterprise, and pleaded
capital conventionally, he and his bank colleagues       guilty to a five-count Information. The Informa-
developed a plan to increase loans in process to         tion charges him with conspiracy to unlawfully
two borrowers—one of whom was the primary                produce identification documents and false iden-
borrower in this scheme—in order to provide              tification documents, conspiracy to commit wire
financing to both individuals for the purchase of        fraud affecting financial institutions and bank
bank stock. The former president and CEO took            fraud, aggravated identity theft, money laundering,
this action despite knowing that banking laws and        and conspiracy to defraud the Internal Revenue
regulations prohibited such loans. He directed that      Service. A co-conspirator who fraudulently estab-
$82 million dollars in additional loans be made to       lished credit scores for the enterprise’s customers
straw borrowers acting for the primary borrower.         and fraudulently obtained hundreds of thou-
The former president and CEO directed that the           sands of dollars in commercial loans for others
bank continue with the loans to this borrower            also pleaded guilty to a three-count Information
despite learning prior to closing the loans that this    charging him with conspiracy to commit wire fraud
borrower’s entire relationship with the bank was         affecting financial institutions. Victim institutions
based on false financial documents. Based on agree-      include Provident Bank, Citibank, and TD Bank.
ments between the former bank president and CEO
                                                         The leader of the fraud ring ran a criminal enter-
and two borrowers, a total of $25 million of Orion       prise headquartered in Bergen County, N.J., that
Bancorp, Inc. stock was purchased in violation of        obtained, brokered, and sold identity documents
banking laws and regulations. Following the illegal      to customers for the purpose of committing credit
stock transactions, the former president and CEO         card fraud, bank fraud, and tax fraud. As part of the
repeatedly lied to the bank’s regulators regarding       scheme, the enterprise obtained social security
the source of the capital infusion. During the course    cards beginning with the prefix “586.” Social security
of the scheme, the former president and CEO also         cards with that prefix were issued by the United
sold in excess of $750,000 of his personal bank          States to individuals, usually from China, who were
stock to other investors based on false pretenses.       employed in American territories, such as American
Earlier in the reporting period, on October 25,          Samoa, Guam, and Saipan. The head of the enter-
2011, the co-conspirators were sentenced for their       prise ran advertisements in local newspapers to
14
attract customers interested in his illegal services,     A principal co-conspirator in the fraud ring admitted
met with customers and other co-conspirators, and         his role in three separate conspiracies, including
otherwise directed the activities of the criminal         that from 2001 through 2002, he conspired with
enterprise. He obtained and sold 586 social security      others to fraudulently obtain hundreds of thou-
cards to his customers, and members of his criminal       sands of dollars in small business loans for unquali-
enterprise escorted more than 100 customers to            fied borrowers. To obtain these commercial loans,
various states so they could fraudulently obtain          he and other co-conspirators submitted false
identification cards and driver’s licenses using the      loan applications and supporting documents to a
586 social security cards and other fraudulent docu-      lender. The vast majority of these loans defaulted,
ments – such as counterfeit Chinese passports.            resulting in significant losses to the lender.
Subsequently, the enterprise engaged in the fraudu-       He also admitted that between 2006 and January
lent “build up” of credit scores associated with these    2009, he conspired with others to obtain hundreds
fraudulently obtained identities. It did so by adding     of thousands of dollars in personal business
these identities as authorized users to the credit card   loans for unqualified borrowers. In furtherance of
accounts of various co-conspirators who received          this conspiracy, he and a co-conspirator manu-
a fee for this service – members of the enterprise’s      factured false tax returns and W-2 forms and
credit build-up teams. By attaching the identities        submitted them with bogus loan applications to
to these existing credit card accounts, the teams         lenders. The vast majority of these loans defaulted,
increased the credit scores associated with the           resulting in significant losses to the lenders.
identities to between 700 and 800. The members            Finally, he admitted that he conspired with the ring-
of the build-up teams knew neither the real person        leader and others by fraudulently building credit
to whom the identity belonged nor virtually any of        scores for the customers who were using 586 identi-
the customers who had purchased the identities.           ties. He acknowledged that he received approxi-
After building the credit associated with these           mately $500 in cash for each identity he added to
identities, the ring-leader and his co-conspirators       his accounts. In total, he and his co-conspirators
directed, coached, and assisted their customers           caused in excess of $2.5 million in losses to banks,
to open bank accounts and obtain credit cards.            credit card companies, and other lenders.
He and his co-conspirators then used these                Sentencing for both individuals was scheduled for
accounts and credit cards to commit fraud. In             April 23, 2012.
particular, he relied on several collusive merchants      Source: This investigation was initiated by the FBI and the FDIC OIG
who possessed credit card processing, or swipe,           based on information from a cooperating witness in another OIG
machines. For a fee, known as a “kkang fee,” these        case. Responsible Agencies: This is a joint investigation by the FDIC
collusive merchants charged the fraudulently              OIG, FBI, U.S. Immigration and Customs Enforcement, and Bergen
                                                          County Prosecutor’s Office. The case is being prosecuted by the U.S.
obtained credit cards, although no transaction            Attorney’s Office for the District of New Jersey.
took place. After receiving the money into their
merchant accounts from the credit card related            Former CFO Pleads Guilty in Colonial Bank/Taylor
to these fraudulent transactions, the collusive           Bean & Whitaker Case
merchants gave the money to the ring-leader
                                                          The former chief financial officer (CFO) of Taylor,
and his co-conspirators, minus their “kkang fee.”
                                                          Bean & Whitaker (TBW), a private mortgage
In total, the ring-leader defrauded various credit        lending company, pleaded guilty to a two-count
card companies, banks, and lenders out of approxi-        criminal Information in which he was charged
mately $4 million. He admitted to laundering              with conspiracy to commit bank and wire fraud
portions of the money he obtained through the             and making false statements for his role in a
fraud by wiring the money to various accounts in          fraud scheme that contributed to the failures
South Korea. He and his co-conspirators also claimed      of Colonial Bank and TBW. In August 2009, the
more than $182,000 in tax refunds from the Internal       Alabama State Banking Department, Colonial
Revenue Service through the filing of false and ficti-    Bank’s regulator, seized the bank and appointed
tious tax returns and accompanying documents.             the FDIC as receiver. Colonial BancGroup and
                                                                                                                            15
TBW also filed for bankruptcy in August 2009.             the former treasurer of TBW; the former senior vice
                                                          president of Colonial Bank and head of its mortgage
The former CFO admitted that from 2006 through
                                                          warehouse lending division; the former operations
August 2009, he and his co-conspirators engaged
                                                          supervisor for Colonial Bank’s mortgage ware-
in a scheme to defraud Ocala Funding, a subsidiary
                                                          house lending division; and a former senior finan-
of TBW; its investors; Colonial Bank; Ginnie Mae; and
                                                          cial analyst at TBW. Prison sentences for these six
Freddie Mac. He admitted that he knowingly and
                                                          individuals have ranged from 3 months to 8 years.
intentionally misled investors and auditors about
Ocala Funding’s assets by issuing financial reports       Source: This investigation was initiated by SIGTARP. Responsible
                                                          Agencies: The failure of Colonial Bank, Montgomery, Alabama was
that overstated Ocala Funding’s assets to mislead         investigated by the FDIC OIG, FBI, SIGTARP, Department of Housing
investors to invest in the facility or to dissuade them   and Urban Development OIG, and was prosecuted by the Depart-
from pulling their investments out of the facility.       ment of Justice, Criminal Division, Fraud Section, and the U. S.
                                                          Attorney’s Office for the Eastern District of Virginia.
Specifically, the former CFO became aware of a
significant shortfall in assets in Ocala Funding          Former Bank President of Hometown Bank
that grew from $150 million in 2006 to a deficit of       of Villa Rica Sentenced in $2.5 Million Fraud
over $700 million by June 2008. The former CFO            Scheme
knew that these collateral deficits were misrep-
                                                          The former president of Hometown Bank, Villa Rica,
resented in Ocala Funding’s financial statements
                                                          Georgia, was sentenced in November 2011 to serve
and, as a result, in TBW’s financial statements as        6 years in federal prison to be followed by 5 years
well. He knew that similar misrepresented finan-          of supervised release, on charges of bank fraud. He
cial reports were sent to Ocala Funding investors         was also ordered to pay restitution of $2,424,301
and other third parties, and made no efforts to           to SunTrust Bank, which acquired Hometown Bank
object to, or correct, the outgoing reports. He           in 2008. Another individual—a borrower at the
and others also falsely explained to investors and        bank—previously pleaded guilty to conspiring
regulators that there was no collateral shortfall.        with the former president to defraud the bank.
In other schemes, the former CFO and others               The former president defrauded the bank by issuing
changed mortgage loan data in order to inflate            multiple loans to the borrower and then misap-
the value of mortgage servicing rights that served        propriating the funds from those loans, all without
as collateral for a working capital line at Colonial      the knowledge or authorization of Hometown
Bank. He also directed a co-conspirator to inflate        Bank’s loan committee. As part of his scheme,
a TBW receivable account to increase the assets           the former president directed that the minutes of
TBW allegedly owned. He knew this information             loan committee meetings be falsified to indicate
was provided to Colonial Bank and to Ginnie Mae           that loans to the borrower had been approved,
and Freddie Mac for purposes of renewing TBW’s            when, in fact, the committee had not approved,
authority to service and sell guaranteed securities.      and was not even aware of, the loans. According
Finally, when TBW’s independent auditor recom-            to the borrower, he paid the former president over
mended TBW retain outside counsel to conduct              $130,000 in cash kickbacks for making the loans.
an investigation, the former CFO edited a letter to
                                                          To perpetrate the scheme, the former president
Ginnie Mae attributing TBW’s delay in submitting
                                                          approved loans for the borrower’s companies,
audited financial statements to other matters and
                                                          acquired cash back from borrower, and also required
failed to disclose the auditors’ concerns and the
                                                          the borrower to give false invoices for fraudulent
hiring of outside counsel for investigation purposes.
                                                          draws on loans. The former president asked the
The former CFO is the eighth person convicted as          borrower to provide him with $1 million in false
a result of this investigation. The former Chairman       invoices to place in the loan file prior to FDIC bank
of TBW was convicted by a jury on April 19, 2011,         examiners reviewing the file. The borrower sent
and was sentenced to 30 years in prison. Six other        in the false invoices and the former president
individuals pleaded guilty and were sentenced             presented the documentation to the bank exam-
for their roles in the fraud scheme, including: the       iners as legitimate. He also subordinated a loan that
former CEO of TBW; the former president of TBW;           was made to the borrower, causing an additional
16
loss to Hometown Bank of over $2 million. The                          Until around October 2010, the attorney operated
borrower received over $10 million in loans from                       several businesses throughout the state in addition
Hometown Bank for which he gave not only cash                          to running his law practice. He primarily concen-
kickbacks to the former president, but also provided                   trated on developing property owners’ improve-
free vacations, tickets to the Masters golf tourna-                    ment districts and issuing special assessment bonds
ment, the down payment on a Porsche, and other                         to fund these districts. These assessment bonds are
lavish gifts.                                                          also known as special improvement district bonds.
Source: The investigation was initiated based upon information         The attorney admitted that between December
received from FDIC RMS. Responsible Agencies: This case was
                                                                       31, 2008, and September 29, 2010, First Southern
conducted by the FDIC OIG and was prosecuted by the U.S. Attorney’s
Office for the Northern District of Georgia.                           Bank, located in Batesville, Arkansas, purchased
                                                                       special improvement district bonds, totaling
Former Bank Officer Sentenced for $4.45 Million                        approximately $23 million, from him. Prior to the
Bank Fraud                                                             purchase of each bond, the attorney would provide
                                                                       the bank with offering documents describing the
The former executive vice president of Jersey
                                                                       details of bonds. At his plea hearing, the attorney
State Bank, Jerseyville, Illinois, was sentenced
                                                                       acknowledged that these bonds were fraudulent.
to serve 63 months in prison to be followed by
                                                                       Around August 2009, the attorney, through PA
60 months of supervised release for embez-
                                                                       Alliance Trust, a trust he formed in February 2009,
zling approximately $4.45 million from the bank.
                                                                       purchased a controlling interest, approximately
She previously pleaded guilty and agreed to                            53 percent, in First Southern Bank. To facilitate this
forfeit property and proceeds traceable to the                         purchase, he borrowed approximately $4.6 million
scheme, including her residence, two condo-                            from First State Bank in Lonoke. He pledged the
miniums in Missouri, a 38-foot boat, various other                     First Southern Stock as collateral for this loan. In or
vehicles, and bank stock. The bank fraud took                          around September 2010, through his PA Alliance
place from at least 2003 through January 2011.                         Trust, he purchased an additional $5.5 million in
The former executive vice president electronically                     First Southern stock, which increased his owner-
transferred funds from the bank’s corresponding                        ship in the bank to 64.9 percent. To facilitate this
accounts to her own accounts, inflated expenses                        purchase, he, in part, used funds from the sale of
to a prepaid expense account and then electroni-                       two fraudulent bonds to First Southern Bank.
cally transferred the funds to her account, took                       Other victim banks in the fraud were Centennial
money from a certificate of deposit account, and                       Bank, Citizens, Liberty Bank, First Community, Allied,
concealed the money in the bank’s general ledger.                      Simmons, Regions Bank, and Bank of Augusta.
In order to perpetuate the scheme, she provided
                                                                       Source: This investigation was initiated based on a referral from
false information in the monthly reports to the                        FDIC RMS. Responsible Agencies: This is a joint investigation with
Board. She also provided false information to                          the FBI. The case is being prosecuted by the U.S. Attorney’s Office for
FDIC examiners and to state bank examiners.                            the Eastern District of Arkansas.
Source: FDIC RMS. Responsible Agencies: This investigation was
conducted by the FDIC OIG and the FBI. The case is being prosecuted    Former Chairman of Security Pacific Bank and
by the U.S. Attorney’s Office for the Southern District of Illinois.   Former Controller of Intermediary Company
                                                                       Sentenced for Wire Fraud Scheme
Arkansas Attorney Sentenced for Bank Fraud
                                                                       On October 11 and 12, 2011, the former chairman
An attorney in Little Rock, Arkansas, was sentenced                    of Security Pacific Bank (SPB) Los Angeles, Cali-
to 121 months of incarceration to be followed by 3                     fornia, and majority owner of Security Pacific
years of supervised release for bank fraud. He was                     Bancorp, and the former controller for Namco
also ordered to pay $33,826,326 in restitution. The                    Financial Exchange Corp., were sentenced for their
attorney defrauded nine financial institutions out                     roles in a wire fraud scheme. The former chairman
of nearly $50 million, and those institutions still had                was sentenced to serve 84 months in prison to
outstanding losses of over $39 million at the time                     be followed by 3 years of supervised release.
of the attorney’s sentencing in December 2011.                         The former controller was sentenced to serve
                                                                                                                                            17
21 months in prison to be followed by 3 years of                      recruited numerous individuals to conduct fraudu-
supervised release. They were also ordered to pay                     lent transactions and utilized bank employees to
$20,930,648 in restitution; the restitution order is                  fraudulently access victims’ account information
joint and several. SPB failed on November 8, 2008.                    in Minnesota, California, Massachusetts, Arizona,
Section 1031 of the Internal Revenue Code permits                     New York, and Texas. Through this scheme, they
an owner of investment property to defer capital                      intended to defraud financial institutions of
gains tax by purchasing a replacement property                        more than $50 million. Between March 2006 and
within a certain time frame. Investors can deposit                    December 17, 2010, one of them possessed, stored,
proceeds from real estate sales into a qualified                      and trafficked more than 8,700 stolen identifica-
intermediary company and then, when a replace-                        tion documents, means of identification, bank
ment property is identified, the investor retrieves                   account numbers, and other information for the
the money from the intermediary and uses the                          benefit of the network, with the intent being to
money to purchase the replacement property.                           commit fraud. From 2009 through January of 2010,
                                                                      as part of this conspiracy, the other obtained cash
The former chairman of SPB established Namco                          and purchased merchandise from banks as well as
Financial Exchange Corp. to act as a qualified                        from various retailers in the Minneapolis area using
intermediary company and then he obtained about                       fraudulent credit cards.
$25 million from various clients. The money was
                                                                      Source: Minnesota Financial Crime Task Force. Responsible
deposited into Namco Financial Exchange Corp.’s                       Agencies: This is an on-going joint investigation by the Minnesota
deposit accounts at SPB. The money was supposed                       Financial Crime Task Force, FDIC OIG, IRS CID, the United States
to remain in those accounts until the investors                       Postal Inspection Service, the United States Secret Service, and U.S.
needed it to purchase replacement properties.                         Immigration and Customs Enforcement. The case is being prosecuted
                                                                      by the U.S. Attorney’s Office for the District of Minnesota.
However, the two conspirators removed the money
from SPB prior to SPB’s failure and used it to prop
                                                                      OIG Mortgage Fraud Cases
up the former chairman’s other businesses.
Source: Division of Resolutions and Receiverships Resolution Report
                                                                      Our office has successfully investigated a number
for the Chairman. Responsible Agencies: This is a joint investiga-    of mortgage fraud cases over the past 6 months,
tion by the FDIC OIG and FBI. The case was prosecuted by the U. S.    several of which are described below. Perpetra-
Attorney’s Office for the Central District of California.             tors of these mortgage schemes are receiving stiff
                                                                      penalties and restitution orders. Our involvement
Two Convictions in $50 Million Bank Fraud
                                                                      in such cases is often the result of our participation
Conspiracy Case
                                                                      in a growing number of mortgage fraud task forces.
On February 28, 2012, following a 3-week trial, a                     Mortgage fraud has taken on new characteristics in
jury found one individual guilty of one count of                      the recent economic crisis as perpetrators seek to
conspiracy to commit bank fraud, 11 counts of                         take advantage of an already bad situation, as illus-
bank fraud, 6 counts of mail fraud, 2 counts of wire                  trated in the mortgage rescue fraud case described
fraud, 4 counts of aggravated identity theft, one                     below. Such illegal activity can cause financial ruin to
count of money laundering conspiracy, and one                         homeowners and local communities. It can further
count of trafficking in false authentication features.                impact local housing markets and the economy at
In addition, a second individual was convicted of                     large. Mortgage fraud can take a variety of forms
one count of conspiracy to commit bank fraud, four                    and involve multiple individuals. The following
counts of bank fraud, and four counts of aggravated                   examples illustrate the nature of these fraudulent
identity theft. Prior to trial, six other co-defendants               activities and the actions taken to stop them.
pleaded guilty in connection with this conspiracy.
                                                                      Metro Dream Homes CEO Sentenced to 150-Year
During the period of 2006 to March 2011, the two
                                                                      Prison Term
individuals and others devised and participated in
a scheme to defraud banks and bank customers                          On March 30, 2012, the former CEO of Metro Dream
using stolen identities, stolen and fraudulently                      Homes (MDH) was sentenced to serve 150 years
created bank accounts, counterfeit checks, and                        in prison to be followed by 3 years of supervised
fraudulently acquired credit card accounts. They                      release for his role in a massive mortgage fraud
18
scheme that promised to pay off homeowners’               tors, whose monthly mortgage payments had been
mortgages but eventually left the homeowners to           paid by MDH using the funds of later Dream Homes
fend for themselves. He was also ordered to pay           Program investors, to attend recruitment meet-
restitution of $34.3 million. A total of six defendants   ings to assure potential investors that the Dream
have been convicted and sentenced for their roles in      Homes Program was not a fraud. MDH paid inves-
this scheme.                                              tors through a third-party company to advertise the
Beginning in 2005, the former CEO and his                 Dream Homes Program to friends and family. As a
co-conspirators targeted homeowners and home              result of the scheme, more than 1,000 investors in
purchasers to participate in a purported mort-            the Dream Homes Program invested approximately
gage payment program called the “Dream Homes              $78 million. When the defendants stopped making
Program.” To give investors the impression that           the promised mortgage payments, the homeowners
the Dream Homes Program was very successful,              were left to make the mortgage payments them-
MDH spent hundreds of thousands of dollars                selves with no recourse for their invested funds.
making presentations at luxury hotels such as             Responsible Agencies: Joint investigation by the Washington,
the Washington Plaza Hotel in Washington, D.C.,           D.C. and Maryland Mortgage Fraud Task Forces which, for this case,
                                                          included the FDIC OIG; the FBI; IRS CID; and the Maryland Attorney
the Marriott Marquis Hotel in New York, NY, and           General’s Office – Securities Division. The case is being prosecuted by
the Regent Beverly Wilshire Hotel in Beverly Hills,       the U.S. Attorney’s Office for the District of Maryland.
CA. Participants were told at the presentations
that in exchange for a minimum $50,000 invest-            Sentencing in Mortgage Rescue Fraud Case
ment and an “administrative fee” of up to $5,000,         On March 8, 2012, a loan originator was sentenced
the conspirators would make the homeowners’               to serve 41 months in prison to be followed
future monthly mortgage payments, and pay off             by 3 years of supervised release for his role in
the homeowners’ mortgage within 5 to 7 years.             a mortgage rescue fraud scheme. The scheme
Dream Homes Program representatives explained             led to the issuance of over $4.7 million in
to investors that the homeowners’ initial invest-         fraudulent mortgage loans and caused home-
ments would be used to fund investments in                owners to lose over $1.2 million in equity.
automated teller machines, flat-screen televisions
that would show paid business advertisements,             According to the loan originator’s plea agree-
and electronic kiosks that sold goods and services.       ment and court documents, the loan originator
MDH encouraged homeowners to refinance existing           conspired with another individual who oper-
mortgages on their homes in order to withdraw             ated a mortgage company from her home. The
equity and generate the funds necessary to enroll         loan originator steered clients to her mortgage
their homes in the Dream Homes Program.                   brokerage franchise. Beginning in 2005, the loan
                                                          originator identified homeowners who were in
In reality, the automated teller machines, flat-screen    financial distress because they were unable to
televisions, and kiosks never generated any mean-         make the mortgage loan payments on their homes
ingful revenue, the defendants used the funds from        and enticed the homeowners to participate in a
later investors to pay the mortgages of earlier inves-    foreclosure “rescue” plan. He told the homeowners
tors, and MDH had not filed any federal income tax        that he would locate “investors” to purchase their
returns throughout its existence. Unbeknownst to          homes and thereafter, the homeowners would
the investors, their investments were being used for      pay rent to the “investors,” who would pay the
the personal enrichment of select MDH employees,          mortgage and receive a small percentage of
including the defendants, to: pay salaries and mort-      the homeowners’ equity. The remainder of the
gages; employ a staff of chauffeurs and maintain          homeowners’ equity would be transferred to him,
a fleet of luxury cars; and travel to and attend the      and he would hold it in escrow. He further prom-
2007 National Basketball Association All-Star game        ised the homeowners that they could buy back
and the 2007 National Football League Super Bowl,         their properties after 12 to 18 months, giving
staying in luxury accommodations in both instances.       them time to “repair” their finances and credit
In marketing the Ponzi scheme, the defendants             while they continued to live in their homes.
arranged for early Dream Homes Program inves-             He recruited family members and associates as
                                                                                                                               19
“investors” to purchase the properties and paid                           qualified for the loans without the self-employment
them a small percentage of the seller’s equity at                         letters, and could not afford to make their mortgage
the time of settlement. Prior to the sales of the                         payments. Actual losses to date exceed $9 million.
homes, he created and recorded second deeds                               Responsible Agencies: This is a joint investigation with the FBI and
of trust or promissory notes that purported to                            U.S. Immigration and Customs Enforcement, and is being prosecuted
show debts owed by the homeowners to him,                                 by the U.S. Attorney’s Office for the Eastern District of Virginia.
and that were secured by the existing equity
                                                                          Los Angeles Man Sentenced in Mortgage Fraud
in their home. At the closing of the home sales,
                                                                          Scheme
the title companies disbursed funds to the loan
originator’s bank account to pay off the liens he                         On January 18, 2012, the operator of a realty
had created. He assured the homeowners and                                and investment company was sentenced to
“investors” that he would assist them with their                          serve 24 months in prison to be followed by 36
rent and mortgage payments by using the equity                            months of supervised release and was ordered
that he claimed he was holding in his “escrow                             to pay restitution of $2,381,636. Earlier, he had
account.” In fact, both he and his co-conspirator                         pleaded guilty to providing a false statement to
knew that he was simply putting these funds                               a financial institution and money laundering.
into his personal checking account and using                              Between January 2005 and December 2007, the
the funds for personal and business purposes,                             businessman provided fraudulent loan applica-
including the purchase of a personal residence                            tions to Indymac Bank, National City Mortgage
with a cashier’s check in the amount of $169,132.                         (a Division of National City Bank), and JP Morgan
The co-conspirators obtained new mortgage                                 Chase to obtain mortgage loans in excess of $3.7
loans on the properties in the names of the “inves-                       million. The loan applications were submitted by
tors” with higher monthly mortgage payments,                              straw borrowers and contained false statements
and usually higher interest rates than those the                          regarding employment, assets, and occupancy.
homeowners were currently paying. In the loan                             Source: This case was initiated by the FDIC OIG. Responsible
applications, the mortgage company operator                               Agencies: This was a joint investigation by the FDIC OIG and the FBI.
                                                                          The case was prosecuted by the U.S. Attorney’s Office for the Central
falsely represented that the “investors” intended                         District of California.
to live in the homes as their primary residence
and inflated the incomes of the “investors.” In
some instances, she submitted fraudulent loan
applications for the same “investors” to purchase
multiple properties as their primary residence in a
short period of time. The loan originator assisted
the mortgage company owner by procuring
false verification of employment letters.
Source: This investigation was based on a request for assistance
from the Maryland Mortgage Fraud Task Force and the FBI, Baltimore
Field Office, Baltimore, Maryland. Responsible Agencies: This is a
joint investigation with the FBI and the U.S. Attorney’s Office for the
District of Maryland.

Guilty Pleas Entered in Mortgage Fraud Case
The owner of a tax preparation firm and another
businessman pleaded guilty to conspiracy to
commit bank fraud for their roles in a mortgage
fraud scheme. According to the plea agreement,
the two produced more than 270 self-employment
letters for borrowers who, in turn, used those letters
to support mortgage loan applications. These
borrowers were not self-employed, would not have
20
Strong Partnerships with Law Enforcement Colleagues
The OIG has partnered with various U.S. Attorneys’ Offices throughout
the country in bringing to justice individuals who have defrauded
the FDIC or financial institutions within the jurisdiction of the FDIC, or
criminally impeded the FDIC’s examination and resolution processes.
The alliances with the U.S. Attorneys’ Offices have yielded posi-
tive results during this reporting period. Our strong partnership
has evolved from years of hard work in pursuing offenders through
parallel criminal and civil remedies resulting in major successes, with
harsh sanctions for the offenders. Our collective efforts have served
as a deterrent to others contemplating criminal activity and helped
maintain the public’s confidence in the nation’s financial system.
During the reporting period, we partnered with U.S. Attorneys’ Offices
in the following geographic areas: Alabama, Arizona, Arkansas, Cali-
fornia, Colorado, District of Columbia, Florida, Georgia, Illinois, Iowa,
Kansas, Kentucky, Louisiana, Maryland, Massachusetts, Michigan,
Minnesota, Mississippi, Missouri, Nebraska, Nevada, New Jersey, New
Mexico, New York, North Carolina, North Dakota, Ohio, Oklahoma,
Pennsylvania, South Carolina, South Dakota, Tennessee, Texas, Utah,
Virginia, Washington, West Virginia, Wisconsin, and Puerto Rico.
We also worked closely with the Department of Justice; FBI; other OIGs;
other federal, state, and local law enforcement agencies; and FDIC divi-
sions and offices as we conducted our work during the reporting period.




                                                                             21
                           Keeping Current with Financial Fraud Activities Nationwide
     The FDIC OIG participates in the following mortgage fraud and other bank fraud working groups and task
     forces throughout the country. We benefit from the perspectives, experience, and expertise of all parties
     involved in combating criminal activity and fraudulent schemes nationwide.
     OIG Headquarters       National Bank Fraud Working Group--National Mortgage Fraud Working Sub-group.
     New York Region        Long Island Mortgage Fraud Task Force; Eastern District New York Mortgage
                            Fraud Task Force; the Northern Virginia Real Estate Fraud Initiative Working Group,
                            Manassas, Virginia; Maine Suspicious Activity Report (SAR) Review Team; Maryland
                            Mortgage Fraud Task Force; the New England Mortgage Fraud Working Group; Phila-
                            delphia Mortgage Fraud Working Group; DC National SAR Review Team.
     Atlanta Region         Middle District of Florida Mortgage and Bank Fraud Task Force; Southern District of
                            Florida Mortgage Fraud Working Group; Northern District of Georgia Mortgage Fraud
                            Task Force; Eastern District of North Carolina Bank Fraud Task Force; Northern District
                            of Alabama Financial Fraud Working Group.
     Kansas City Region     St. Louis Mortgage Fraud Task Force; Kansas City Mortgage Fraud Task Force; Kansas
                            City Financial Crimes Task Force; Minnesota Inspector General Council meetings;
                            Kansas City SAR Review Team; Springfield, Missouri SAR Review Team; Nebraska SAR
                            Review Team; Iowa Mortgage Fraud Working Group.
     Chicago Region         Illinois Mortgage Fraud Task Force, Dayton Area Mortgage Task Force, Cincinnati Area
                            Mortgage Fraud Task Force, Southern District of Illinois Bank Fraud Working Group,
                            Illinois Bank Fraud Working Group, Indiana Bank Fraud Working Group, Detroit Mort-
                            gage Fraud Task Force, Central District of Illinois SAR Review Team, Southern District
                            of Illinois SAR Review Team, Northern District of Illinois SAR Review Team.
     San Francisco          FBI Seattle Mortgage Fraud Task Force, Fresno Mortgage Fraud Working Group for
     Region                 the Eastern District of California, Sacramento Mortgage Fraud Working Group for the
                            Eastern District of California, Sacramento SAR Working Group, Los Angeles Mortgage
                            Fraud Working Group for the Central District of California.
     Dallas Region          Mortgage Fraud Task Force for the Southern District of Mississippi, Oklahoma City
                            Financial Crimes SAR Review Work Group, North Texas Mortgage Fraud Working
                            Group, the Eastern District of Texas Mortgage Fraud Task Force, the Texas Attorney
                            General’s Residential Mortgage Fraud Task Force, Houston Mortgage Fraud Task
                            Force, Austin SAR Review Working Group.
     Electronic Crimes      Washington Metro Electronic Crimes Task Force, Botnet Threat Task Force, High Tech-
     Unit                   nology Crime Investigation Association, Cyberfraud Working Group.




22
               Strategic Goal 2:
               The OIG Will Help the FDIC
               Maintain the Viability of the
               Insurance Fund
                                                                                                2
F
Federal deposit insurance remains a fundamental
part of the FDIC’s commitment to maintain stability
and public confidence in the nation’s financial
system. With enactment of the Emergency Economic
Stabilization Act of 2008, the limit of the basic FDIC
deposit insurance coverage was raised temporarily
from $100,000 to $250,000 per depositor, through
December 31, 2009. This coverage was subsequently
                                                         eight quarters in a row for a cumulative increase
                                                         of $32.7 billion from the negative $20.9 billion
                                                         at the end of 2009 and as of year-end 2011, the
                                                         DIF balance was a positive $11.8 billion. Under
                                                         the Restoration Plan for the DIF, the FDIC has put
                                                         in place assessment rates necessary to achieve
                                                         a reserve ratio (the ratio of the fund balance
                                                         to estimated insured deposits) of 1.35 percent
extended through December 31, 2013, and the              by September 30, 2020, as the Dodd-Frank Act
Dodd-Frank Act made permanent the increase in            requires. FDIC analysis of the past two banking
the coverage limit to $250,000. It also provided         crises has shown that the DIF reserve ratio must be
deposit insurance coverage on the entire balance         2 percent or higher in advance of a banking crisis
of non-interest bearing transaction accounts at all      to avoid high deposit insurance assessment rates
insured depository institutions until December 31,       when banking institutions are strained and least
2012. A priority for the FDIC is to ensure that the      able to pay. Consequently, the FDIC established a
DIF remains viable to protect all insured deposi-        2-percent reserve ratio target as a critical compo-
tors. To maintain sufficient DIF balances, the FDIC      nent of its long-term fund management strategy.
collects risk-based insurance premiums from insured
                                                         The FDIC has also implemented the Dodd-Frank Act
institutions and invests deposit insurance funds.
                                                         requirement to redefine the base used for deposit
Since year-end 2007, the failure of FDIC-insured         insurance assessments as average consolidated
institutions has imposed total estimated losses of       total assets minus average tangible equity rather
nearly $89 billion on the DIF. The sharp increase in     than an assessment based on domestic deposits.
bank failures over the past several years caused the     The FDIC does not expect this change to materially
fund balance to become negative. The DIF balance         affect the overall amount of assessment revenue
turned negative in the third quarter of 2009 and         that otherwise would have been collected. However,
hit a low of negative $20.9 billion in the following     as Congress intended, the change in the assessment
quarter. As the DIF balance declined, the FDIC           base will generally shift some of the overall assess-
adopted a statutorily required Restoration Plan and      ment burden from community banks to the largest
increased assessments to handle the high volume of       institutions, which rely less on domestic deposits for
failures and begin replenishing the fund. The FDIC       their funding than do smaller institutions. The result
increased assessment rates at the beginning of 2009.     will be a sharing of the assessment burden that
In June 2009, the FDIC imposed a special assessment      better reflects each group’s share of industry assets.
that brought in additional funding from the banking      The FDIC has estimated that aggregate premiums
industry. Further, in December 2009, to increase the     paid by institutions with less than $10 billion in
FDIC’s liquidity, the FDIC required that the industry    assets will decline by approximately 30 percent,
prepay almost $46 billion in assessments, repre-         primarily due to the assessment base change.
senting over 3 years of estimated assessments.
                                                         The FDIC, in cooperation with the other primary
Since the FDIC imposed these measures, the               federal regulators, proactively identifies and evalu-
DIF balance has steadily improved. It increased          ates the risk and financial condition of every insured
throughout 2010 and stood at negative $1.0 billion       depository institution. The FDIC also identifies
as of March 31, 2011. The fund balance has risen         broader economic and financial risk factors that
                                                                                                             23
affect all insured institutions. The FDIC is committed     tory institutions. As noted earlier, the FDIC’s new CFI is
to providing accurate and timely bank data related         now playing a key role in overseeing these activities.
to the financial condition of the banking industry.
                                                           To help the FDIC maintain the viability of the DIF,
Industry-wide trends and risks are communicated
                                                           the OIG’s 2012 performance goal is as follows:
to the financial industry, its supervisors, and poli-
cymakers through a variety of regularly produced             •	Evaluate corporate programs to identify and
publications and ad hoc reports. Risk-management               manage risks in the banking industry that can cause
activities include approving the entry of new                  losses to the fund.
institutions into the deposit insurance system,
offsite risk analysis, assessment of risk-based            OIG Work in Support of Goal 2
premiums, and special insurance examinations
and enforcement actions. In light of increasing            We did not complete work specifically related to this
globalization and the interdependence of financial         goal area during the reporting period. We would
and economic systems, the FDIC also supports the           note, however, that the OIG’s work referenced in
development and maintenance of effective deposit           Goal 1 fully supports the goal of helping the FDIC
insurance and banking systems world-wide.                  maintain the viability of the DIF. Each institution for
                                                           which we conduct an MLR, in-depth review, or a failed
Primary responsibility for identifying and managing        bank review, by definition, causes a substantial loss
risks to the DIF lies with the FDIC’s Division of Insur-   to the DIF. The OIG’s failed bank work is designed to
ance and Research, RMS, Division of Resolutions and        help prevent such losses in the future. Other assign-
Receiverships (DRR), and now CFI. The FDIC’s new           ments in the supervision area are designed for
Chief Risk Officer also plays a key role in identifying    the same purpose. Similarly, investigative activity
risks. To help integrate the risk management process,      described in Goal 1 fully supports the strategic goal
the FDIC Board authorized the creation of an Enter-        of helping to maintain the viability of the DIF. The
prise Risk Committee, as a cross-divisional body to        OIG’s efforts often lead to successful prosecutions
coordinate risk assessment and responses across            of fraud in financial institutions, with restitution
the Corporation. Also, a Risk Analysis Center moni-        paid back to the FDIC when possible, and/or deter-
tors emerging risks and recommends responses               rence of fraud that can cause losses to the fund.
to the Corporation’s National Risk Committee. In
addition, a Financial Risk Committee focuses on
how risks impact the DIF and financial reporting.
Over recent years, the consolidation of the banking
industry resulted in fewer and fewer financial institu-
tions controlling an ever-expanding percentage of
the nation’s financial assets. The FDIC has taken a
number of measures to strengthen its oversight of
the risks to the insurance fund posed by the largest
institutions, and its key programs have included
the Large Insured Depository Institution Program,
Dedicated Examiner Program, Shared National
Credit Program, and offsite monitoring systems.
Importantly, with respect to the largest institu-
tions, Title II of the Dodd-Frank Act will help
address the notion of “Too Big to Fail.” The largest
institutions will be subjected to the same type
of market discipline facing smaller institutions.
Title II provides the FDIC authority to wind down
systemically important bank holding companies
and non-bank financial companies as a companion
to the FDIC’s authority to resolve insured deposi-
24
                Strategic Goal 3:
                The OIG Will Assist the FDIC to
                Protect Consumer Rights and Ensure
                Customer Data Security and Privacy
                                                                                                    3
C
Consumer protection laws are important safety
nets for Americans. The U.S. Congress has long
advocated particular protections for consumers in
relationships with banks. The following are but a
sampling of Acts seeking to protect consumers:
  •	The Community Reinvestment Act encourages
    federally insured banks to meet the credit needs
    of their entire community.
                                                            disclosures that are required by federal laws and
                                                            regulations and examining the banks where the
                                                            FDIC is the primary federal regulator to deter-
                                                            mine the institutions’ compliance with laws and
                                                            regulations governing consumer protection, fair
                                                            lending, and community investment. As a means
                                                            of remaining responsive to consumers, the FDIC’s
                                                            Consumer Response Center investigates consumer
                                                            complaints about FDIC-supervised institutions and
  •	The Equal Credit Opportunity Act prohibits              responds to consumer inquiries about consumer
    creditor practices that discriminate based on           laws and regulations and banking practices.
    race, color, religion, national origin, sex, marital
    status, or age.                                         The FDIC continues to experience and imple-
                                                            ment changes related to the Dodd-Frank Act that
  •	The Home Mortgage Disclosure Act was                    have direct bearing on consumer protections.
    enacted to provide information to the public            The Dodd-Frank Act established a new Consumer
    and federal regulators regarding how depository         Financial Protection Bureau within the FRB and
    institutions are fulfilling their obligations towards   transferred to this bureau the FDIC’s examination
    community housing needs.                                and enforcement responsibilities over most federal
  •	The Fair Housing Act prohibits discrimination           consumer financial laws for insured depository
    based on race, color, religion, national origin, sex,   institutions with over $10 billion in assets and their
    familial status, and handicap in residential real-      insured depository institution affiliates. Also during
    estate-related transactions.                            early 2011, the FDIC established a new Division
                                                            of Depositor and Consumer Protection, respon-
  •	The Gramm-Leach Bliley Act eliminated                   sible for the Corporation’s compliance examina-
    barriers preventing the affiliations of banks with      tion and enforcement program as well as the
    securities firms and insurance companies and            depositor protection and consumer and commu-
    mandates new privacy rules.                             nity affairs activities that support that program.
  •	The Truth in Lending Act requires meaningful            Historically, turmoil in the credit and mortgage
    disclosure of credit and leasing terms.                 markets has presented regulators, policymakers,
  •	The Fair and Accurate Credit Transaction Act            and the financial services industry with serious
    further strengthened the country’s national             challenges. The FDIC has been committed to
    credit reporting system and assists financial           working with the Congress and others to ensure
    institutions and consumers in the fight against         that the banking system remains sound and that
    identity theft.                                         the broader financial system is positioned to
                                                            meet the credit needs of the economy, especially
The FDIC serves a number of key roles in the
                                                            the needs of creditworthy households that may
financial system and among the most impor-
                                                            experience distress. Another important priority is
tant is its work in ensuring that banks serve their
                                                            financial literacy. The FDIC has promoted expanded
communities and treat consumers fairly. The
                                                            opportunities for the underserved banking popu-
FDIC carries out its role by providing consumers
                                                            lation in the United States to enter and better
with access to information about their rights and
                                                            understand the financial mainstream. Economic
                                                                                                                 25
inclusion continues to be a priority for the FDIC.           tions of FDIC affiliation or insurance that nega-
Consumers today are also concerned about data                tively impact public confidence in the banking
security and financial privacy. Banks are increas-           system.
ingly using third-party servicers to provide
support for core information and transaction              OIG Work in Support of Goal 3
processing functions. The FDIC seeks to ensure
                                                          During the reporting period, we did not devote
that financial institutions protect the privacy
                                                          audit or evaluation resources directly to this goal
and security of information about customers
                                                          area. However, our investigative work related to
under applicable U.S. laws and regulations.
                                                          misrepresentation of FDIC insurance or affiliation,
Every year fraud schemers attempt to rob                  and protection of personal information supported
consumers and financial institutions of millions of       this strategic goal area. Additionally, in response
dollars. The OIG’s Office of Investigations can iden-     to an increase in the number of consumer inqui-
tify, target, disrupt, and dismantle criminal organiza-   ries in our public inquiry system, the OIG has
tions and individual operations engaged in fraud          referred a number of matters either to the FDIC’s
schemes that target our financial institutions or that    Consumer Response Center or to other entities
prey on the banking public. OIG investigations have       offering consumer assistance on banking-related
identified multiple schemes that defraud consumers.       topics. These efforts are discussed below.
Common schemes range from identity fraud to
Internet scams such as “phishing” and “pharming.”         Office of Investigations Works to Prevent
The misuse of the FDIC’s name or logo has been            Misrepresentations of FDIC Affiliation
identified as a common scheme to defraud                  Unscrupulous individuals sometimes attempt to
consumers. Such misrepresentations have led               misuse the FDIC’s name, logo, abbreviation, or
unsuspecting individuals to invest on the strength        other indicators to suggest that deposits or other
of FDIC insurance while misleading them as to             products are fully insured or somehow connected
the true nature of the investment products being          to the FDIC. Such misrepresentations induce the
offered. These consumers have lost millions of            targets of schemes to trust in the strength of FDIC
dollars in the schemes. Investigative work related        insurance or the FDIC name while misleading them
to such fraudulent schemes is ongoing and will            as to the true nature of the investments or other
continue. With the help of sophisticated technology,      offerings. Abuses of this nature not only harm
the OIG continues to work with FDIC divisions and         consumers, they can also erode public confidence
other federal agencies to help with the detection         in federal deposit insurance. During the reporting
of new fraud patterns and combat existing fraud.          period, one of our investigations resulted in the
Coordinating closely with the Corporation and the         punishment of the perpetrator of a fraud scheme
various U.S. Attorneys’ Offices, the OIG helps to         involving misrepresentation of FDIC affiliation. In
sustain public confidence in federal deposit insur-       another case, the owner of a securities firm was
ance and goodwill within financial institutions.          convicted for his role in defrauding retired investors.
To assist the FDIC to protect consumer rights and
ensure customer data security and privacy, the            Sentencing and Guilty Plea for Co-Conspir-
OIG’s 2012 performance goals are as follows:              ators in Securities Fraud Scheme Involving
                                                          the Misrepresentation of FDIC Insurance
  •	Contribute to the effectiveness of the Corpo-
    ration’s efforts to ensure compliance with            On February 24, 2012, a co-conspirator in a secu-
    consumer protections at FDIC-supervised institu-      rities fraud scheme was sentenced to serve 54
    tions.                                                months in prison to be followed by 36 months of
                                                          supervised release. He was also ordered to pay resti-
  •	Support corporate efforts to promote fairness
                                                          tution of $12,993,844. On March 27, 2012, one of
    and inclusion in the delivery of products and
                                                          his co-conspirators pleaded guilty to a superseding
    services to consumers and communities.
                                                          criminal Information charging him with one count of
  •	Conduct investigations of fraudulent representa-      money laundering in connection with the scheme.
26
The two co-conspirators and one other individual                           The former owner and COO paid the former
offered and sold to investors collateral secured                           managing director and brokers working under
debt obligations (CSDOs) issued by W Financial                             the managing director to sell the securities, but
Group. They received approximately $17.9 million                           the former owner and COO also signed docu-
from the sale of the so-called CSDOs to 175 inves-                         ments that went directly to investors. Through the
tors. Advertisements for FDIC-insured certificates                         brokers and through documents that he signed,
of deposit paying a high rate of interest—above                            the former owner and COO misled, deceived, and
the actual market rate—were placed in local                                defrauded investors by misrepresenting, and by
newspapers, and when investors responded to the                            failing to disclose, material facts concerning the
advertisements they were steered into the CSDOs.                           safety of the securities. Among other things, he
Investors were deceived into believing that the                            falsely represented to investors that their invest-
CSDOs were secure and fully insured by either the                          ments were guaranteed by a commercial bank,
FDIC or Lloyds of London. The money obtained from                          that the investors’ principal was secured by an
the investors was diverted for personal use and the                        interest in certain types of collateral, that insur-
investors lost the majority of their investment.                           ance purchased by AmeriFirst companies insured
Source: This investigation was initiated based a request for assis-        the investors against loss of their money, and that
tance from the FBI and the U.S. Attorney’s Office for the Northern         the issuers of the secured debt obligations were
District of Texas. Responsible Agencies: This is a joint investigation     acting as the investors’ fiduciaries. However, none of
with the FBI. The case is being prosecuted by the U.S. Attorney’s Office
for the Northern District of Texas.
                                                                           these representations was true. Rather, the former
                                                                           owner and COO, acting as the investors’ fiduciary,
Owner of AmeriFirst Companies Convicted                                    spent investors’ money on purchases that investors
in Fraud Scheme That Victimized Retired                                    did not approve or even know about, including an
                                                                           airplane, sports cars, a condominium, real estate for
Investors
                                                                           used car lots, and his own personal living expenses.
In December 2011, the owner and chief operating
                                                                           Another defendant charged in the scheme,
officer (COO) of the now-defunct Dallas-based
                                                                           a broker who sold secured debt obligations,
AmeriFirst Funding Corp. and AmeriFirst Acceptance
                                                                           pleaded guilty in October 2007 and is serving a
Corp. (AmeriFirst) was convicted on four counts of
                                                                           60-month federal prison sentence. He was also
securities fraud and five counts of mail fraud related
                                                                           ordered to pay nearly $16 million in restitution.
to his role in defrauding investors in connection with
sales of securities. Both of his companies have been                       Source: Securities and Exchange Commission. Responsible Agen-
                                                                           cies: This is a joint investigation by the FDIC OIG, FBI, Securities and
under control of a court-appointed receiver since                          Exchange Commission, and Texas State Securities Board. The case
the Securities and Exchange Commission brought                             is being prosecuted by the U.S. Attorney’s Office for the Northern
an emergency action to halt the fraud in July 2007.                        District of Texas.

In connection with the same scheme, the former
                                                                           Electronic Crimes Unit Responds to Email
managing director of AmeriFirst was convicted
on nine counts of securities fraud and is currently
                                                                           and Other Schemes
serving a 25-year federal prison sentence. The                             The Electronic Crimes Unit (ECU) continues
former owner and COO now faces a maximum                                   to work with agency personnel and an FDIC
statutory sentence of 20 years in prison for each                          contractor to identify and mitigate the effects of
securities fraud count and 20 years in prison for                          phishing attacks claiming to be from the FDIC.
each mail fraud count. Each count carries a fine of                        These schemes persist and seek to elicit person-
up to $250,000. Sentencing was set for April 2012.                         ally identifiable and/or financial information
                                                                           from their victims. The nature and origin of such
The two co-conspirators orchestrated offerings
                                                                           schemes vary and in many cases, it is difficult to
of promissory notes called secured debt obliga-
                                                                           pursue the perpetrators, as they are quick to cover
tions that raised more than $50 million from more
                                                                           their cyber tracks, often continuing to originate
than 500 investors living in Texas and Florida,
many of whom were retired and all of whom                                  their schemes from other Internet addresses.
were looking for safe and secure investments.                              The ECU is also investigating an individual falsely
                                                                                                                                                  27
representing himself to Bank of America that he is
an FDIC employee. Specifically, an individual has
repeatedly contacted Bank of America in an attempt
to work out a past due mortgage about to go into
foreclosure. The individual has sent numerous emails
and facsimiles that falsely represent that he is with
the FDIC. The ECU has determined the name used
in the emails and facsimiles is false and continues to
track down the individual making these false claims.

OIG’s Inquiry Intake System Responds to
Public Concerns and Questions
The OIG’s inquiry intake system supplements the
OIG Hotline function. The Hotline continues to
address allegations of fraud, waste, abuse, and
possible criminal misconduct. However, over the
past year or so, our office has continued to receive
a number of public inquiries ranging from media
inquiries to requests for additional information
on failed institutions to pleas for assistance with
mortgage foreclosures to questions regarding
credit card companies and associated interest
rates. These inquiries come by way of phone
calls, emails, faxes, and other correspondence.
The OIG makes every effort to acknowledge
each inquiry and be responsive to the concerns
raised. We handle those matters within the OIG’s
jurisdiction and refer inquiries, as appropriate, to
other FDIC offices and units or to external orga-
nizations. During the past 6-month period, we
addressed approximately 250 such matters.




28
               Strategic Goal 4:
               The OIG Will Help Ensure that the
               FDIC Efficiently and Effectively
               Resolves Failed Banks and Manages
               Receiverships
                                                                                                    4
I
In the FDIC’s history, no depositor has experienced
a loss on the insured amount of his or her deposit
in an FDIC-insured institution due to a failure. One
of the FDIC’s most important roles is acting as the
receiver or liquidating agent for failed FDIC-insured
institutions. The success of the FDIC’s efforts in
resolving troubled institutions has a direct impact
on the banking industry and on taxpayers.
                                                            a similar set of receivership powers to liquidate
                                                            failed systemically important financial firms.
                                                            In addition to the activities associated with exer-
                                                            cising this new resolution authority in the future,
                                                            the Corporation is currently dealing with a chal-
                                                            lenging resolution and receivership workload. To
                                                            date during the crisis, approximately 433 institu-
                                                            tions have failed, with total assets at inception
The FDIC’s DRR’s responsibilities include planning          of $669.7 billion. Estimated losses resulting from
and efficiently handling the resolutions of failing         the failures total approximately $89 billion. As of
FDIC-insured institutions and providing prompt,             December 31, 2011, the number of institutions
responsive, and efficient administration of failing         on the FDIC’s “Problem List” was 813, indicating
and failed financial institutions in order to maintain      the potential of more failures to come and an
confidence and stability in our financial system.           increased asset disposition workload. As refer-
  •	The resolution process involves valuing a               enced earlier in this report, these problem institu-
    failing federally insured depository institution,       tions contain total assets of about $319.4 billion.
    marketing it, soliciting and accepting bids for the     Franchise marketing activities are at the heart of
    sale of the institution, considering the least costly   the FDIC’s resolution and receivership work. The
    resolution method, determining which bid to             FDIC pursues the least costly resolution to the DIF
    accept, and working with the acquiring institu-         for each failing institution. Each failing institu-
    tion through the closing process.
                                                            tion is subject to the FDIC’s franchise marketing
  •	The receivership process involves performing            process, which includes valuation, marketing,
    the closing function at the failed bank; liqui-         bidding and bid evaluation, and sale compo-
    dating any remaining assets; and distributing           nents. The FDIC is often able to market institutions
    any proceeds to the FDIC, the bank customers,           such that all deposits, not just insured deposits,
    general creditors, and those with approved              are purchased by the acquiring institution, thus
    claims.                                                 avoiding losses to uninsured depositors.
Banks over the past years have become more                  Of special note, as of March 31, 2012, through
complex, and the industry has consolidated                  purchase and assumption (P&A) agreements with
into larger organizations. As a result, the FDIC            acquiring institutions, the Corporation had entered
has been called upon to handle failing institu-             into 285 shared-loss agreements (SLA) involving
tions with significantly larger numbers of insured          about $212.4 billion in assets at closing. Under these
deposits than it has dealt with in the past.                agreements, the FDIC agrees to absorb a portion
An important reform under the Dodd-Frank Act is             of the loss—generally 80-95 percent—which may
the new resolution authority for large bank holding         be experienced by the acquiring institution (AI)
companies and systemically important non-bank               with regard to those assets, for a period of up to
financial companies. The FDIC has historically              10 years. In addition, as of March 31, 2012, the
carried out a prompt and orderly resolution process         FDIC had entered into 32 structured asset sales
under its receivership authority for insured banks          involving 42,314 assets with a total unpaid principal
and thrifts. The Dodd-Frank Act gave the FDIC               balance at closing of about $25.5 billion. Under
                                                                                                                   29
these arrangements, the FDIC retains a participation      Investigations may send case agents and computer
interest in future net positive cash flows derived        forensic special agents from the ECU to the insti-
from third-party management of these assets.              tution. ECU agents use special investigative tools
                                                          to provide computer forensic support to OIG
Other post-closing asset management activities
                                                          investigations by obtaining, preserving, and later
will continue to require much FDIC attention. FDIC
                                                          examining evidence from computers at the bank.
receiverships manage assets from failed institutions,
mostly those that are not purchased by acquiring          The OIG also coordinates with DRR on concealment
institutions through P&A agreements or involved in        of assets cases that may arise. In many instances, the
structured sales. The FDIC is managing about 447          FDIC debtors do not have the means to pay fines
receiverships holding about $21 billion in assets,        or restitution owed to the Corporation. However,
mostly securities, delinquent commercial real-estate      some individuals do have the means to pay but
and single-family loans, and participation loans.         hide their assets and/or lie about their ability to
Post-closing asset managers are responsible for           pay. The Office of Investigations works with both
managing many of these assets and rely on receiver-       DRR and the Legal Division in aggressively pursuing
ship assistance contractors to perform day-to-day         criminal investigations of these individuals.
asset management functions. Since these loans are         To help ensure the FDIC efficiently and effectively
often sub-performing or nonperforming, workout            resolves failing banks and manages receiverships,
and asset disposition efforts are more intensive.         the OIG’s 2012 performance goals are as follows:
The FDIC increased its permanent resolution and             •	Evaluate the FDIC’s plans and systems for
receivership staffing and significantly increased its         managing bank resolutions.
reliance on contractor and term employees to fulfill
the critical resolution and receivership responsi-          •	Investigate crimes involved in or contributing
bilities associated with the ongoing FDIC interest            to the failure of financial institutions or which
in the assets of failed financial institutions. At the        lessen or otherwise affect recoveries by the DIF,
end of 2008, on-board resolution and receiver-                involving restitution or otherwise.
ship staff totaled 491, while on-board staffing as
of November 30, 2011 was 1,858. As of year-end            OIG Work in Support of Goal 4
2010, the dollar value of contracts awarded in the
resolution and receivership functions accounted for       During the reporting period, the OIG continued to
approximately $2.4 billion of the total value of $2.6     carry out and plan varied assignments involving
billion. As of December 31, 2011, the dollar value        a range of resolution and receivership activities.
of DRR-related contracts awarded for 2011 totalled        We continued work related to the FDIC’s risk-
$1.2 billion of a total $1.4 billion for all contracts.   sharing agreements with acquiring institutions
                                                          and/or limited liability companies involved in
The significant surge in failed-bank assets and           structured asset sales. Several such assignments
associated contracting activities has required            are summarized below. We also conducted work
effective and efficient contractor oversight              in the areas of private capital investment and
management and technical monitoring func-                 examined the FDIC’s acquisition and manage-
tions. Bringing on so many contractors and new            ment of securities obtained through resolution
employees in a short period of time can strain            and receivership activities. The results of our
personnel and administrative resources in such            efforts in these areas are also presented below.
areas as employee background checks, which, if
not timely and properly executed, can compromise          OIG Audit Work Focuses on Resolution and
the integrity of FDIC programs and operations.            Receivership Challenges
While OIG audits and evaluations address various
aspects of resolution and receivership activi-            The FDIC’s Monitoring of SLAs
ties, OIG investigations benefit the Corporation          During the reporting period, we reviewed the
in other ways. For example, in the case of bank           FDIC’s overall efforts to monitor and ensure compli-
closings where fraud is suspected, our Office of          ance with the terms and conditions of the SLAs
30
and summarized the findings and recommenda-              contractor task orders; the efficiency of evaluating
tions in the five OIG reports on SLA compliance          contractor performance; the consistency of AI moni-
that we had issued to date and associated actions        toring efforts; and the sufficiency of guidance for
that the FDIC has taken. We reported that as of          pursuing and reporting recoveries and monitoring
September 30, 2011, the FDIC had entered into            non-compliant AIs. The FDIC concurred with our
269 SLAs with an initial covered asset base of           recommendations and is taking responsive action.
$209.5 billion and paid claims totaling $14.6 billion.   We reported that with respect to the OIG’s five
We initiated our evaluation to assess the FDIC’s         previously issued SLA reports, the FDIC had
efforts to monitor the program and the controls          implemented corrective actions to address 79 of
the FDIC put in place to protect its interests.          the 85 recommendations made in those reports
The FDIC provides shared-loss coverage for single-       and planned to implement corrective actions
family and commercial assets. Single-family SLAs         to address the remaining recommendations by
typically cover a 10-year period. Commercial             March 2012. These reports questioned $67.4
SLAs typically cover an 8-year period, with the          million in SLA claims paid by the FDIC, and the
first 5 years for losses and recoveries and the final    FDIC had recovered $32.4 million of these claims
3 years for recoveries only. The AI is paid by the       as of September 30, 2011. DRR determined that
FDIC when it experiences certain loss events on          $6.2 million of the questioned costs were allow-
the covered assets, as described in the SLAs. The        able and therefore did not pursue recoveries on
FDIC introduced loss-sharing into selected P&A           those amounts. DRR continued to work with the AIs
agreements in 1991 and since 2008, most P&A              to resolve the outstanding questioned costs and
agreements have included a loss-sharing feature.         expected to resolve these issues by March 2012.

DRR is responsible for the FDIC’s Risk Sharing           Other SLA Compliance Reviews
Asset Management Program and provides
                                                         We continued to report on the compliance of
primary oversight of the SLA program. As a
                                                         specific AIs with their SLAs with the FDIC and
means of evaluating and monitoring AI compli-
                                                         the FDIC’s oversight of the SLAs. During the
ance with the SLAs, the FDIC also uses third-party
                                                         reporting period, we issued an additional two
contractors, referred to as Compliance Moni-             such reports. The first covered the FDIC’s commer-
toring Contractors, to evaluate and monitor AI           cial loan SLA with Banco Popular, and the second
compliance and to complement DRR staff.                  the Corporation’s SLAs with BankUnited.
We found that the FDIC has a number of controls
in place to monitor and ensure compliance with           Banco Popular
the terms and conditions of the SLAs. The sudden-        On April 30, 2010, the Office of the Commis-
ness and severity of the financial crisis and the        sioner of Financial Institutions of the Common-
large volume of failed bank assets challenged the        wealth of Puerto Rico closed Westernbank Puerto
FDIC to quickly establish and implement an SLA           Rico, Mayaguez, Puerto Rico (Westernbank),
monitoring program. The FDIC had to promptly             and appointed the FDIC as receiver. To protect
hire staff and contractors and develop procedures        depositors, the FDIC entered into a P&A agree-
and systems to manage the growing program. The           ment with Banco Popular de Puerto Rico, San
SLA program is continuing to mature, as evidenced        Juan, Puerto Rico (Banco Popular). The FDIC also
by the finalization of policies and procedures,          entered into SLAs with Banco Popular covering
initiation of training programs, strengthened AI         $8.77 billion in assets from Westernbank.
compliance monitoring efforts, and implementa-
                                                         The FDIC’s P&A agreement with Banco Popular
tion of data resources to manage program data.
                                                         covering Banco Popular’s acquisition of West-
In any program of this size, there will be emerging      ernbank included two SLAs - one for commercial
issues and risks that require monitoring and atten-      assets and one for single-family asset portfolios.
tion. In that regard, our report contains five recom-    Banco Popular acquired 43,873 commercial assets
mendations that are intended to strengthen the           totaling $7.8 billion. Under the SLA, the FDIC
SLA program. These relate to the timeliness of           pays Banco Popular 80 percent of the incurred
                                                                                                              31
losses, as reported on the loss claim certificates,   with BankUnited covering more than $11 billion
in accordance with the SLA. As of June 30, 2011,      of the acquired assets. We contracted with
Banco Popular had submitted three commercial          BDO USA, LLP (BDO) to assess BankUnited’s
shared loss certificates totaling $699 million.       compliance with the terms of its SLAs with
Overall, we found that Banco Popular had acted        the FDIC related to BankUnited, FSB assets.
proactively to facilitate compliance with the         The two SLAs with BankUnited involved 46,526
SLA and cooperated with the FDIC in managing          commercial and other loan assets and single-family
its commercial shared-loss portfolio. Nonethe-        assets, consisting of loans, other real estate owned,
less, we questioned claims related to: accrued        and securities totaling approximately $11.7 billion.
interest on non-accrual loans, estimated              In the BankUnited SLAs, the FDIC reimburses 80
costs in charge-off calculations, recoveries          percent of losses claimed up to a threshold of
on charged-off loans, unsupported reimburs-           a cumulative loss of $4 billion and 95 percent
able expenses, and unsupported loss claims.           of losses above $4 billion. As of June 30, 2011,
We made five recommendations for the FDIC             BankUnited had claimed slightly over $2 billion in
to disallow the questioned claims. Banco              losses on assets covered by the SLAs. The FDIC made
Popular officials agreed with our findings and        payments to BankUnited of $1.6 billion (the FDIC’s
the bank is continuing to work to identify            80-percent share of the $2 billion in losses claimed).
supporting documentation regarding unsup-             BDO concluded that, overall, BankUnited was in
ported expenses and loss claims. We identi-           compliance with the terms of the SLAs. It was
fied $16.6 million as questioned costs (of which      apparent to BDO that BankUnited had dedi-
$6.7 million were unsupported costs).                 cated substantial resources to ensure compli-
With respect to the FDIC’s oversight of the           ance with the SLAs. For example, BankUnited had
Banco Popular SLA, DRR has established an             developed policies and procedures to ensure
approach that involves three primary compo-           compliance, loan files were well organized, and
nents: ongoing communication between the              employees were knowledgeable about the agree-
bank and DRR specialists assigned to monitor          ments. Nonetheless, BDO observed that for early
and facilitate the bank’s compliance; a valida-       certificates, there was a weakness in the controls
tion, review, and approval process for shared-        over the review process for single-family asset
loss certificates filed by Banco Popular; and         charge-offs. BDO identified one charge-off that
on-site reviews conducted by DRR contractors          was overstated by $501,272 (questioned costs
to evaluate the bank’s overall SLA compliance.        of $401,017, 80 percent of the overstatement).
DRR has also taken program-wide steps that            BDO also noted that the SLAs and DRR guidance
facilitate its oversight of the Banco Popular         did not specifically address how accrued interest on
SLA, including: establishing procedures for           negatively amortizing loans should be calculated
oversight of SLAs; conducting information-            or reflected in the loss claim and that DRR did not
sharing sessions with AIs, oversight staff,           have specific guidance regarding the capitaliza-
and contractors; and establishing a database          tion of accrued interest to the unpaid principal
for tracking AIs’ compliance with SLAs.               balance for negatively amortizing loans. As a
FDIC management agreed with our five recom-           result, BankUnited may have overstated accrued
mendations and is taking responsive action.           interest by approximately $812 (questioned costs
                                                      of $650, 80 percent of the overstatement) and
BankUnited                                            losses claimed by $41,076 (questioned costs of
                                                      $32,861, 80 percent of the overstatement).
On May 21, 2009, the former OTS closed
BankUnited, FSB, Coral Gables, Florida, and           The report also included an observation related
appointed the FDIC as receiver. To protect            to BankUnited’s compliance with a loan sale
depositors, the FDIC entered into a P&A agree-        addendum to the SLA and encouraged the FDIC to
ment with BankUnited, Miami Lakes, Florida            monitor BankUnited’s asset liquidation efforts to
(BankUnited). The FDIC also entered into SLAs         ensure the bank’s goals and investment objectives
32
agreed with FDIC SLA program expectations. In               that were qualified to bid on failed insured deposi-
total, BDO identified $434,528 in questioned costs.         tory institutions, and staff involved in the process
                                                            maintained voluminous documentation in connec-
FDIC management concurred with BDO’s find-
                                                            tion with the applications that BDO reviewed.
ings and recommendations. We also provided
                                                            However, the evidence for the approvals and the
BankUnited with a copy of the draft report for
                                                            extent and organization of the supporting docu-
its review. In a letter to our office responding to
                                                            mentation varied among the applications BDO
the report, BankUnited agreed with two recom-
                                                            reviewed. We reported that the FDIC may benefit
mendations. As for the third, regarding negatively
                                                            from re-evaluating its approach for documenting
amortizing loans, BankUnited considered its
                                                            its application approval process to mitigate the
methodology to be appropriate and noted that the
                                                            risks associated with staff departures and changes,
application of payments on such loans is a compli-
                                                            to ensure consistency in its process, and to more
cated matter and entails certain legal implications.
                                                            efficiently supply supporting information to
The FDIC’s Qualification Process for Private                support decisions reached when asked to do so.
Capital Investors Interested in Acquiring                   The report contained a recommendation for RMS
or Investing in Failed Insured Depository                   and the Legal Division to review the manner in
Institutions                                                which approvals and analyses pertaining to private
                                                            capital investor applications are documented
We contracted with BDO to conduct an audit of               and maintained and determine whether current
the FDIC’s process for qualifying a private capital         procedures and practices in this area are adequate
investor (PCI) to bid on failed insured depository          given the risks involved. FDIC management agreed
institutions. The audit did not include a determina-        with the recommendation and also committed to
tion regarding the appropriateness of the FDIC’s            conducting a formal review of the SOP’s impact
decisions to grant or deny approval for PCIs to             and briefing the FDIC Board on the results.
bid on failed insured depository institutions.
By way of background, the FDIC’s Final Statement            The FDIC’s Acquisition and Management of
of Policy on Qualifications for Failed Bank Acquisi-        Securities Obtained Through Resolution and
tions (SOP) provides guidance to PCIs interested in         Receivership Activities
acquiring or investing in failed insured depository
                                                            We contracted with BDO to conduct an audit of
institutions, including terms and conditions that PCIs
                                                            the FDIC’s acquisition and management of securi-
are expected to satisfy to obtain bidding eligibility
                                                            ties obtained through resolution and receiver-
for a proposed acquisition structure. Further, the
                                                            ship activities. The audit covered the securities
FDIC has statutory responsibility under the Federal
                                                            that were acquired through the resolution and
Deposit Insurance Act for acting on applications for
                                                            receivership activities of the failed banks that
federal deposit insurance by all depository institu-
                                                            were closed and placed into FDIC receivership
tions, including institutions established and used by
                                                            from October 1, 2010 through March 31, 2011. The
PCIs for failed bank acquisitions. In situations where
                                                            audit did not include securities covered by SLAs.
PCIs are investing capital in an existing institution for
the purpose of such acquisitions, the FDIC’s RMS and        By way of context, DRR has primary responsibility
Legal Division, in conjunction with the appropriate         for managing receivership assets, including secu-
federal banking agency, review the PCI application          rities. Securities may be a substantial portion of
to ensure that what is being proposed is consistent         failed institutions’ assets and may include debt
with applicable laws, regulations, and policies.            instruments; common and preferred equity,
                                                            including equity in the institution resolved;
The audit found that the FDIC had established
                                                            equity in subsidiaries owned by the resolved
processes and controls that evolved after the issu-
                                                            institution; and limited partnerships.
ance of the SOP and that continued to improve
during the audit. The FDIC was able to demon-               The value of securities retained by the FDIC in its
strate that the necessary internal approvals were           receivership capacity was $12.8 and $12.4 billion on
obtained for private capital investor institutions          December 31, 2010 and May 31, 2011, respectively.
                                                                                                                 33
For the year ended December 31, 2010, principal            Electronic Crimes Unit Supports Closed Bank
collections totaled $11.3 billion, and sales of securi-    Investigations
ties in liquidation totaled $9.1 billion. For the period
                                                           The ECU continued to support the OIG’s Office
January 1, 2011 through May 31, 2011, principal
                                                           of Investigations by providing computer
collections totaled $1.7 billion, and sales of securi-
                                                           forensic assistance in ongoing fraud investi-
ties totaled $691 million.
                                                           gations. During the reporting period, an ECU
BDO concluded that, for the most part, the FDIC had        agent attended a bank closing where fraud was
established adequate draft procedures, processes,          suspected. The ECU agent coordinated with
and controls for the FDIC’s acquisition and manage-        the case agent and information technology
ment of securities from failed financial institutions.     personnel at the closing to ensure collection of all
However, BDO concluded that the FDIC had not               relevant electronic evidence. The ECU is currently
finalized, approved, and issued its draft Capital          processing the collected electronic evidence
Markets Policies and Procedures Manual and that            for information to assist in the investigation.
the manual did not include key processes and               In another case, the ECU received over 20 pieces
controls for monitoring principal and interest (P&I)       of electronic evidence, totaling over 9 terabytes.
and timing guidelines for the transfer of securities to    The electronic evidence was previously obtained
the FDIC custodian. Additionally, the P&I payments         during a search warrant but the agency that
associated with securities were not always received        collected the evidence was unable to process it. An
and properly recorded. As part of the audit, BDO           ECU agent processed the evidence and provided
requested information and support regarding                the case agents and prosecutor with a report
the monitoring and collection of P&I distribu-             containing information to assist the investigation.
tions owed to the FDIC for a sample of securities.
                                                           The ECU is also assisting the FDIC with an ongoing
In responding to this request, the FDIC identified
                                                           project related to the collection and preservation
approximately $9.8 million of P&I distributions            of electronic data. The project is a comprehensive
associated with 24 securities that were not prop-          agency-wide initiative to develop standards to
erly identified, monitored, or collected during the        more effectively and efficiently collect and preserve
period October 1, 2010 through March 31, 2011.             electronic data. The ECU is participating in a portion
Accordingly, the report identified $9.8 million            of the project related to the collection of elec-
in questioned costs. During the audit, the FDIC            tronic data at bank closings. The ECU is providing
began a Securities Payment Recapture and Recon-            assistance to the FDIC in determining whether
ciliation Project to identify and collect distribu-        electronic data can be collected in a more efficient
tions owed to the FDIC for securities acquired             method at bank closings to save time and money
as a result of all bank failures through June 30,          without resulting in the loss of relevant data.
2011. As of September 1, 2011, the project team
had identified $44.4 million in payments due to
the FDIC from acquirers of failed institutions.
The report included four recommendations
intended to enhance the Capital Markets Poli-
cies and Procedures Manual and improve
controls over the FDIC’s acquisition and
management of securities. FDIC management
concurred with the four recommendations
and described planned corrective actions that
were responsive to each recommendation.




34
             Strategic Goal 5:
             The OIG Will Promote Sound
             Governance and Effective Stewardship
             and Security of Human, Financial, IT,
             and Physical Resources
                                                                                                5
T
The FDIC must effectively manage and utilize a
number of critical strategic resources in order to
carry out its mission successfully, particularly its
human, financial, information technology (IT),
and physical resources. These resources have
been stretched during the past years of the recent
crisis, and the Corporation will continue to face
challenges as it seeks to return to a steadier state
                                                         reduced to $3.28 billion. The FDIC’s operating
                                                         expenses are paid from the DIF, and consistent
                                                         with sound corporate governance principles, the
                                                         Corporation’s financial management efforts must
                                                         continuously seek to be efficient and cost-conscious.
                                                         Opening new offices, rapidly hiring and training
                                                         many new employees, expanding contracting
                                                         activity, and training those with contract oversight
of operations. Promoting sound governance
                                                         responsibilities placed heavy demands on the
and effective stewardship of its core business
                                                         Corporation’s personnel and administrative staff
processes and human and physical resources
                                                         and operations during the crisis. Now, as condi-
will be key to the Corporation’s success.
                                                         tions seem a bit improved throughout the industry
Of particular note, FDIC staffing levels increased       and the economy, a number of employees will
dramatically in light of the crisis but have begun to    need to be released—as is the case in the two
trend downward. The Board approved an authorized         temporary satellite offices referenced earlier-- and
2011 staffing level of 9,252 employees, which was        staffing levels will continue to move closer to a
up about 2.5 percent from the 2010 authorization of      pre-crisis level, which may cause additional disrup-
9,029. On a net basis, all of the new positions were     tion to ongoing operations and current workplaces
temporary, as were 39 percent of the total 9,252         and working environments. Among other chal-
authorized positions for 2011. Authorized staffing       lenges, pre- and post-employment checks for
for 2012 is 8,704. Temporary employees were hired        employees and contractors will need to ensure the
by the FDIC to assist with bank closings, manage-        highest standards of ethical conduct, and for all
ment and sale of failed bank assets, and other activi-   employees, in light of a transitioning workplace,
ties that were expected to diminish substantially as     the Corporation will seek to sustain its emphasis
the industry returns to more stable conditions. To       on fostering employee engagement and morale.
that end, the FDIC opened three temporary satel-
                                                         From an IT perspective, amidst the heightened
lite offices (East Coast, West Coast, and Midwest) for
                                                         activity in the industry and economy, the FDIC
resolving failed financial institutions and managing
                                                         is engaging in massive amounts of information
the resulting receiverships. The FDIC closed the
                                                         sharing, both internally and with external part-
West Coast Office in January 2012 and intends to
                                                         ners. FDIC systems contain voluminous amounts
close the Midwest Office in September 2012.
                                                         of critical data. The Corporation needs to ensure
The Corporation’s contracting level also grew            the integrity, availability, and appropriate confi-
significantly, especially with respect to resolution     dentiality of bank data, personally identifiable
and receivership work. Contract awards in DRR            information, and other sensitive information in an
totaled $2.4 billion during 2010 and as of December      environment of increasingly sophisticated security
2011 totaled $1.2 billion for 2011. To support the       threats and global connectivity. Continued atten-
increases in FDIC staff and contractor resources, the    tion to ensuring the physical security of all FDIC
Board of Directors approved a $4.0 billion Corpo-        resources is also a priority. The FDIC needs to be
rate Operating Budget for 2011, down slightly from       sure that its emergency response plans provide for
the 2010 budget the Board approved in December           the safety and physical security of its personnel and
2009. For 2012, the approved budget was further          ensure that its business continuity planning and
                                                                                                            35
disaster recovery capability keep critical business      the relationship between internal and external
functions operational during any emergency.              risks and related risk mitigation activities should
The FDIC is led by a five-member Board of Directors,     be understood by all involved. In 2011, the
all of whom are to be appointed by the President         Chairman announced creation of a new Office of
and confirmed by the Senate, with no more than           Corporate Risk Management to be led by a Chief
three being from the same political party. In the        Risk Officer. In mid-August 2011, that position
past, the FDIC had in place three internal direc-        was filled and the first Chief Risk Officer at the
tors—the Chairman, Vice Chairman, and one                FDIC came on board. The Board also authorized
independent Director—and two ex officio directors,       creation of an Enterprise Risk Committee, as a
the Comptroller of the Currency and the Director of      cross-divisional body to coordinate risk assessment
OTS. With the passage of the Dodd-Frank Act, the         and response across the Corporation. The addi-
OTS no longer exists, and the Director of OTS has        tion of these risk management functions should
been replaced on the FDIC Board by the Director of       serve the best interests of the Corporation.
the Consumer Financial Protection Bureau, Richard        To promote sound governance and effective stew-
Cordray. Former FDIC Chairman Sheila Bair left           ardship and security of human, financial, IT, and
the Corporation when her term expired—in early           physical resources, the OIG’s 2012 performance
July 2011. Vice Chairman Martin Gruenberg was            goals are as follows:
serving as Acting Chairman as of the end of 2011,
                                                           •	Evaluate corporate efforts to manage human
and had been nominated by the President to serve
                                                             resources and operations efficiently, effectively,
as Chairman. In March 2012, the Senate extended
the Board term for Acting Chairman Gruenberg but             and economically.
did not vote on his nomination to be Chairman. The         •	Promote integrity in FDIC internal operations.
internal Director, Thomas Curry, nominated by the
                                                           •	Promote alignment of IT with the FDIC’s busi-
President to serve as Comptroller of the Currency,
                                                             ness goals and objectives.
was confirmed as Comptroller in late March 2012
and currently occupies that position. Thomas               •	Promote IT security measures that ensure the
Hoenig, nominated by the President to serve as Vice          confidentiality, integrity, and availability of
Chairman of the FDIC, was confirmed as a Board               corporate information.
member in March 2012 and was sworn in, though              •	Promote personnel and physical security.
not as Vice Chairman, in April 2012. Finally, Jeremiah
Norton was confirmed by the Senate in March 2012           •	Promote sound corporate governance and
and sworn in as a Board Member in April 2012.                effective risk management and internal control
                                                             efforts.
The Board is now at its full five-member capacity for
the first time since July 2011. Given the relatively
frequent turnover on the Board and the new config-       OIG Work in Support of Goal 5
uration of the current Board, it is essential that       During the reporting period, we completed
strong and sustainable governance and communi-           several assignments in support of this goal area.
cation processes be in place throughout the FDIC.        We completed our annual audit in accordance
Board members, in particular, need to possess            with the Federal Information Security Manage-
and share the information needed at all times to         ment Act. In connection with the FDIC’s increased
understand existing and emerging risks and to            contracting activity, we also conducted a billing
make sound policy and management decisions.              review of the National Owned Real Estate Manage-
Enterprise risk management is a key component            ment and Marketing contract with CB Richard
of governance at the FDIC. The FDIC’s numerous           Ellis, Inc. In response to a request from the Acting
enterprise risk management activities need               Chairman, we reviewed the FDIC’s policies and
to consistently identify, analyze, and mitigate          controls associated with conference-related activi-
operational risks on an integrated, corporate-           ties and expenses. Finally, we joined the Treasury
wide basis. Additionally, such risks need to be          and FRB OIGs in our third review related to the
communicated throughout the Corporation, and             transfer of OTS personnel and functions to the
36
OCC, FRB, and FDIC, pursuant to the Dodd-Frank          dards and guidelines published by NIST, such as
Act. These reviews are summarized below.                updating its security plan template to reflect new
                                                        NIST guidelines. The FDIC had also implemented
Independent Evaluation of the FDIC’s Infor-             various security control improvements following
mation Security Program—2011                            our prior-year security evaluation. Most notably,
The Federal Information Security Management Act         the FDIC made meaningful progress in devel-
of 2002 (FISMA) requires federal agencies, including    oping an agency-wide continuous monitoring
the FDIC, to perform annual independent evalu-          program to evaluate the security of its information
ations of their information security programs and       systems and hired additional information security
practices and to report the evaluation results to the   managers to support and administer security over
Office of Management and Budget (OMB). FISMA            its general support systems and major applications.
states that the independent evaluations are to be       Notwithstanding the above achievements, we
performed by the agency Inspector General, or an        pointed out that priority management attention
independent external auditor as determined by           continues to be warranted in some security control
the Inspector General. Our 2011 audit evaluated         areas, particularly continuous monitoring manage-
the effectiveness of the FDIC’s information security    ment. Specifically, significant work remained before
program and practices, including the FDIC’s compli-     the FDIC’s agency-wide continuous monitoring
ance with FISMA and related information security        program was fully implemented. In addition,
policies, procedures, standards, and guidelines.        we reported that risk in the area of contractor
Key to achieving the FDIC’s mission of main-            systems remained elevated as a result of the
taining stability and public confidence in the          FDIC’s continued heavy reliance on contrac-
nation’s financial system is safeguarding the           tors to support its bank resolution and receiver-
sensitive information that the Corporation              ship activities. While the FDIC had developed a
collects and manages. Ensuring the confiden-            formal methodology for assessing risks associated
tiality, integrity, and availability of this infor-     with its contractor systems, work remained to
mation in an environment of increasingly                fully apply this methodology to all of the FDIC’s
sophisticated security threats requires a strong,       outsourced information service providers. Main-
corporate-wide information security program.            taining vigilance in these and other areas of the
                                                        FDIC information security program will continue
We evaluated the effectiveness of the FDIC’s
                                                        to be important given other corporate priorities
information security program and practices by
                                                        associated with the current banking environment.
designing audit procedures to assess consistency
between the FDIC’s security controls and FISMA          Our report included seven recommendations
requirements, OMB policy and guidelines, and            intended to improve the effectiveness of the
applicable National Institute of Standards and          FDIC’s information security program controls in
Technology (NIST) standards and guidelines. In          the areas of plans of action and milestones, remote
addition, we engaged KPMG LLP to provide audit          access management, identity and access manage-
assistance in certain security control areas.           ment, and contractor systems. In many cases, the
                                                        FDIC was already working to strengthen security
We concluded that, for the most part, the FDIC
                                                        controls in these areas during our audit. Our report
had established and maintained information
                                                        did not include recommendations in the area of
security program controls that were generally
                                                        continuous monitoring management as the FDIC
consistent with FISMA requirements, OMB policy
                                                        was working to fully implement a multi-year effort
and guidelines, and applicable NIST standards and
                                                        to address a related recommendation in our prior-
guidelines for the security control areas that we
                                                        year security evaluation report required by FISMA.
evaluated. Of particular note, the FDIC had estab-
lished security policies and procedures in almost all   The FDIC’s Chief Information Officer concurred
of the security control areas evaluated. In addi-       with all seven of the report’s recommendations
tion, the FDIC continued its prior-year efforts to      and described planned corrective actions that were
implement current and emerging security stan-           responsive.
                                                                                                          37
The National Owned Real Estate Manage-                   would not be less than $57,226. These projec-
ment and Marketing Services Contract with                tions reflected certain instances in which CBRE
CB Richard Ellis, Inc.                                   could have but did not make allowable claims.

The FDIC’s DRR sought contractor services to             In addition, our report included a number of
assist in the acquisition, management, research          observations that identified opportunities to
and preparations for marketing, and ultimate             enhance the economy, efficiency and effective-
sale of owned real estate (ORE) property that the        ness of similar existing or future FDIC contracts.
FDIC acquires as receiver of failed financial institu-   FDIC management responded to a draft of
tions. In November 2008, the FDIC executed such          this report, concurring with the two recom-
a contract with CB Richard Ellis, Inc., (CBRE). The      mendations to disallow $42,015 in questioned
initial term of the ORE Receivership Basic Ordering      costs. Regarding the third recommendation,
Agreement was 3 years with three options, each           management acknowledged that the $356,212
to extend the contract for 2 years. CBRE and the         in projected questioned costs may be statisti-
FDIC agreed in August 2011 to terminate the              cally valid, but decided not to pursue collection
ORE Receivership Basic Ordering Agreement.               of projected questioned costs based on the low
The FDIC’s plan to transition ORE assets to other        error rate in the sample and the probability that
receivership basic ordering agreement contractors        collection costs would exceed recoveries.
was completed at the end of December 2011.
FDIC management requested and we completed
                                                         Conference Expenses Report Identifies
an audit to determine whether costs that CBRE            Opportunities for Strengthening Policies
billed the FDIC under the contract were supported        and Reducing Costs
adequately, consistent with the terms and condi-         The FDIC sponsors divisional and office-wide confer-
tions of the contract, allowable, and reasonable. We     ences for FDIC employees, and periodically other
determined that the FDIC paid CBRE $108,319,278          agency participants, to provide information about
(not including funding advances, which we                emerging issues, divisional priorities and initiatives,
excluded from our testing) for contract services and     group training, and networking opportunities. In
pass-through asset-level expense reimbursements          September 2011, OMB instructed agencies and
from contract inception through July 31, 2011.           departments to review policies and controls associ-
Based on a review of a statistically valid sample of     ated with conference-related activities and expenses
invoice line items, we determined that a preponder-      (OMB memorandum M-11-35). While the FDIC is not
ance of CBRE’s claims paid by the FDIC from contract     required to follow the OMB guidance, the Acting
inception through July 31, 2011 were adequately          Chairman requested that we review the FDIC’s poli-
supported, consistent with the terms and condi-          cies and controls associated with conference-related
tions of the contract, allowable, and reasonable. Of     activities and expenses to assist the Corporation
$4,094,787 tested from 1,623 sampled claims, we          in complying with the spirit of the instructions.
found $42,015 (1.03 percent of amounts tested) in        We conducted an evaluation to assess the
129 claims (7.95 percent of the number of claims         FDIC’s policies and controls associated with
tested) that were not consistent with the contract       conference-related activities and expenses. We
terms in the four types of invoices that we reviewed.    generally focused our assignment on confer-
Based on our testing of a statistically valid sample     ences that were conducted from October 1,
of items that CBRE claimed and the FDIC paid in          2010 through September 30, 2011. At our
that period, we calculated an unbiased projection        request, the FDIC provided us with documen-
of questioned costs to be $742,558 (0.69 percent         tation indicating that, during that timeframe,
of the sample universe). In addition, we estimated       the Corporation incurred about $3.9 million in
that there is a 90-percent probability that the actual   conference-related costs for 6,005 attendees.
amount of CBRE claims that should be questioned          We selected for review a sample of eight confer-
would not be less than $398,227, and that the            ences, which accounted for substantially all of the
actual amount of costs not adequately supported          conference-related costs the Corporation incurred
38
during that period. We interviewed conference         spirit of the aforementioned OMB memorandum,
planners and assessed conference costs and            Federal Travel Regulation provisions and other
supporting documentation against the FDIC’s           regulations, and a recent Executive Order aimed at
conference policy. We also reviewed conference-       reducing conference and other agency expenses.
related regulations applicable to other government    These areas included: strengthening the conference
agencies, and obtained conference policies and        approval process; centralizing conference plan-
interviewed representatives from several other        ning and requiring the involvement of the FDIC’s
agencies to identify other agency practices.          Special Services Unit for conferences exceeding a
                                                      certain dollar threshold; exploring ways to make
Most government agencies are required to follow
                                                      greater use of FDIC facilities to host conferences
the Federal Travel Regulation promulgated by          when the use of such facilities is cost effective;
the General Services Administration and other         strengthening controls over meals expenses;
regulations. The Federal Travel Regulation details    reiterating and clarifying corporate policy related
agency responsibilities for conference planning,      to entertainment expenses; reviewing corporate
allowable per diem rates, and expectations for        policy related to external speakers; and ensuring
minimizing conference costs. As an independent        that all conference-related expenses are captured
agency, the FDIC is not required to follow confer-    in the conference closeout and evaluation process.
ence spending criteria applicable to most other
government agencies. Instead, as have other           In connection with our review, the FDIC revised
independent agencies we contacted during our          and reissued FDIC Circular 1010.2, Conference,
review, the FDIC established its own internal poli-   Meeting, and Symposium Planning Policies, Proce-
cies for planning and conducting conferences.         dures, and Approval Requirements for Using FDIC
                                                      Funds for These Activities, effective March 22, 2012.
We reported that the FDIC generally complied          We reviewed the revised policy and concluded that
with its conference policies. Based on our review     it adequately addressed each of the opportunities
of eight conferences, FDIC conference plan-           for improvement that we cited. FDIC management’s
ning officials prepared required budgeting and        response to our report indicated that in addition to
approval documents, ensured that conferences          addressing our opportunities for improvement, the
were approved at the appropriate management           Corporation made other revisions to the conference
level, and obtained multiple bids from hotels/        policy based on its own evaluation of other agen-
conference centers and considered travel costs        cies’ best practices and benchmarks. As with the
and other factors required by policy when making      revised policy, the Corporation’s written response
best-value determinations for conference sites.       adequately addressed the issues raised in our report.
We did identify two compliance exceptions. That
                                                      Joint Review Conducted by the OIGs of the
is, meals expenses for a dinner and a reception
                                                      Department of the Treasury, Board of
exceeded FDIC policy limits—200 percent of
General Services Administration per diem rates—       Governors of the Federal Reserve System,
and were not justified or approved as required.       and the FDIC
The total amount of cost above the FDIC policy        During the reporting period, we issued the
limit was $5,801. Second, the FDIC held a dinner/     results of our offices’ third joint review related
reception for 800 FDIC employees and spouses          to the transfer, pursuant to Title III of the Dodd-
for which a substantial amount of the expenses        Frank Wall Street Reform and Consumer Protec-
related to food and beverages was allowable under     tion Act (Dodd-Frank Act), of the functions,
FDIC policy, while the remainder—estimated by         employees, funds, and property of the OTS to
management to be about $5,200—constituted             the FRB, the FDIC, and the OCC. In accordance
entertainment expense and was not allowable.          with Title III, the transfer occurred in July 2011.
We also concluded that opportunities exist to         Our joint reviews are mandated by Section 327 of
strengthen conference-related policy and controls     Title III. Our first joint review was done to determine
and to reduce conference expenses. We pointed         whether the Joint Implementation Plan (Plan) for
out that doing so would be consistent with the        the transfer prepared by FRB, FDIC, OCC, and OTS
                                                                                                            39
conformed to relevant Title III provisions. Based on
that review, we concluded that the Plan generally         OIG Reports on the FDIC’s Data Submissions
conformed to the relevant provisions of Title III.        through the Governmentwide Financial
We noted, however, that the Plan did not address          Report System as of September 30, 2011
the prohibition in Title III against the involuntary
separation or the involuntary reassignment of a           During the reporting period, we issued a report
transferred OTS employee outside the employee’s           in which we verified that the FDIC’s summary
locality pay area for 30 months (except under certain     general ledger information agreed with summary
circumstances). In response to that recommenda-           information entered into the governmentwide
tion, the agencies amended the Plan in April 2011.        financial report system (GFRS) for the fiscal year
                                                          ended September 30, 2011. As part of our work, we
After the initial joint review of the Plan, Section 327   verified that the FDIC’s data submissions in GFRS
requires that every 6 months we jointly provide a         for the year ended December 31, 2010 agreed with
written report on the status of the implementation        the Corporation’s audited financial statements.
of the Plan to FRB, FDIC, and OCC, with a copy to the     In that regard, the GAO expressed an unqualified
Congress. We issued a report under this requirement       opinion on the financial statements of the Deposit
on September 28, 2011. In that report, we concluded       Insurance Fund and the Federal Savings and Loan
that FRB, FDIC, OCC, and OTS had substantially            Insurance Corporation Resolution Fund in its
implemented the actions in the Plan that were             March 2011 report, entitled Financial Audit: Federal
necessary to transfer OTS functions, employees,           Deposit Insurance Corporation’s Funds 2010 and 2009
funds, and property to FRB, FDIC, and OCC, as             Financial Statements (Report No. GAO-11-412). In
appropriate. However, we also reported that certain       addition, we provided the requisite reports and
aspects of the Plan were on-going or were not yet
                                                          representation letters to the Treasury, Government
required to be completed as provided in Title III.
                                                          Accountability Office, Office of Management and
During the reporting period we issued the next            Budget, and Department of Justice in accordance
in our series of reports on the status of the imple-      with Treasury Financial Manual guidance.
mentation of the Plan. In brief, we concluded that
since our September 2011 review, FRB, FDIC, OCC,
and OTS had continued to implement the actions
in the Plan that were necessary to transfer OTS
functions, employees, and funds to FRB, FDIC,
and OCC. We also concluded that all OTS property
was transferred to FRB, FDIC, and OCC; and proce-
dures and safeguards are in place as outlined in
the Plan to ensure transferred employees are not
unfairly disadvantaged. We again noted that there
are certain other activities that are ongoing or are
not yet required to be completed as provided in
Title III. In accordance with section 327, we will
continue to monitor the implementation of the
Plan until all aspects have been implemented.




40
               Strategic Goal 6:
               Build and Sustain a High-Quality
               Staff, Effective Operations, OIG
               Independence, and Mutually
               Beneficial Working Relationships
                                                                                                  6
W
While the OIG’s audit, evaluation, and investiga-
tion work is focused principally on the FDIC’s
programs and operations, we have an obliga-
tion to hold ourselves to the highest standards of
performance and conduct. We seek to develop and
retain a high-quality staff, effective operations, OIG
independence, and mutually beneficial working
                                                          generally accepted government auditing stan-
                                                          dards; its evaluations in accordance with Quality
                                                          Standards for Inspection and Evaluation; and its
                                                          investigations, which often involve allegations
                                                          of serious wrongdoing that may involve poten-
                                                          tial violations of criminal law, in accordance with
                                                          Quality Standards for Investigations and proce-
                                                          dures established by the Department of Justice.
relationships with all stakeholders. A major chal-        Strong working relationships are fundamental
lenge for the OIG has been ensuring that we had           to our success. We place a high priority on main-
the resources needed to effectively and efficiently       taining positive working relationships with the
carry out the OIG mission at the FDIC, given a            FDIC Chairman, Vice Chairman, other FDIC Board
sharp increase in the OIG’s statutorily mandated          members, and management officials. The OIG is
work brought about by numerous financial institu-         a regular participant at Audit Committee meet-
tion failures, and in light of the new activities and     ings where recently issued audit and evaluation
programs that the FDIC undertook to restore public        reports are discussed. Other meetings occur
confidence and stability in the financial system, all     throughout the year as OIG officials meet with divi-
of which warrant vigilant, independent oversight.         sion and office leaders and attend and participate
To ensure a high-quality staff, we must continuously      in internal FDIC conferences and other forums.
invest in keeping staff knowledge and skills at a level   The OIG also places a high priority on main-
equal to the work that needs to be done, and we           taining positive relationships with the Congress
emphasize and support training and development            and providing timely, complete, and high-quality
opportunities for all OIG staff. We also strive to keep   responses to congressional inquiries. In most
communication channels open throughout the                instances, this communication would include
office. We are mindful of ensuring effective and effi-    semiannual reports to the Congress; issued MLR,
cient use of human, financial, IT, and procurement        in-depth review, audit, and evaluation reports;
resources in conducting OIG audits, evaluations,          information related to completed investigations;
investigations, and other support activities, and         comments on legislation and regulations; written
have a disciplined budget process to see to that end.     statements for congressional hearings; contacts
To carry out our responsibilities, the OIG must be        with congressional staff; responses to congres-
professional, independent, objective, fact-based,         sional correspondence and Member requests;
nonpartisan, fair, and balanced in all its work. Also,    and materials related to OIG appropriations.
the Inspector General (IG) and OIG staff must be          The OIG fully supports and participates in CIGIE
free both in fact and in appearance from personal,        activities, and the FDIC IG currently serves as Chair
external, and organizational impairments to their         of its Audit Committee. We coordinate closely with
independence. As a member of the Council of               representatives from the other the financial regu-
the Inspectors General on Integrity and Efficiency        latory OIGs. In this regard, as noted earlier in this
(CIGIE), the OIG adheres to the Quality Standards         report, the Dodd-Frank Act created the Financial
for Federal Offices of Inspector General. Further,        Stability Oversight Council and further established
the OIG conducts its audit work in accordance with        the Council of Inspectors General on Financial
                                                                                                                41
Oversight (CIGFO). This Council facilitates sharing          objectives, and an annual performance report that
of information among CIGFO member IGs and                    compares actual results against planned goals.
discusses ongoing work of each member IG as it
                                                             The OIG strongly supports GPRA and is committed
relates to the broader financial sector and ways
                                                             to applying its principles of strategic planning
to improve financial oversight. CIGFO may also               and performance measurement and reporting to
convene working groups to evaluate the effective-            our operations. The OIG’s Business Plan lays the
ness of internal operations of the Financial Stability       basic foundation for establishing goals, measuring
Oversight Council. The Treasury IG chairs the CIGFO          performance, and reporting accomplishments
and the FDIC IG is currently serving as Vice Chair.          consistent with the principles and concepts of GPRA.
The IG is a member of the Comptroller General’s              We continuously seek to integrate risk management
Yellow Book Advisory Board. Additionally, the                considerations in all aspects of OIG planning—
OIG meets with representatives of the Govern-                both with respect to external and internal work.
ment Accountability Office to coordinate work                To build and sustain a high-quality staff, effec-
and minimize duplication of effort and with                  tive operations, OIG independence, and mutu-
representatives of the Department of Justice,                ally beneficial working relationships, the OIG’s
including the FBI and U.S. Attorneys’ Offices,               2012 performance goals are as follows:
to coordinate our criminal investigative work
and pursue matters of mutual interest.                         •	Effectively and efficiently manage OIG human,
                                                                 financial, IT, and physical resources.
The FDIC OIG has its own strategic and annual
planning processes independent of the Corpo-                   •	Ensure quality and efficiency of OIG audits, evalu-
ration’s planning process, in keeping with the                   ations, investigations, and other projects and
independent nature of the OIG’s core mission.                    operations.
The Government Performance and Results Act of                  •	Encourage individual growth and strengthen
1993 (GPRA) was enacted to improve the manage-                   human capital management and leadership
ment, effectiveness, and accountability of federal               through professional development and training.
programs. GPRA requires most federal agencies,
including the FDIC, to develop a strategic plan that           •	Foster good client, stakeholder, and staff rela-
broadly defines the agency’s mission and vision, an              tionships.
annual performance plan that translates the vision             •	Enhance OIG risk management activities.
and goals of the strategic plan into measurable
                                                             A brief listing of OIG activities in support
                                                             of these performance goals follows.



            Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
     1   Permanently filled the position of Assistant Inspector General for Management so as to bring focused
         attention to the OIG’s management operations and ensure appropriate controls to efficiently and
         effectively manage OIG resources.
     2   Implemented additional controls to monitor, track, and control OIG spending, particularly as it relates
         to OIG travel-related expenses.
     3   Explored options for a new investigative case management system, and worked to better track audit
         and evaluation assignment costs and to manage audit and evaluation records located on shared
         drives or SharePoint sites.
     4   Provided the OIG’s FY 2013 budget proposal to the House and Senate Appropriations Committees on
         Financial Services and General Government. This budget requests $34.6 million to support 130 full-
         time equivalents.




42
5    Continued to partner with the Division of Information Technology to ensure the security of OIG
     information in the FDIC computer network infrastructure.
6    Continued using our new inquiry intake system to better capture and manage inquiries from the
     public, media, Congress, and Corporation, in the interest of prompt and more effective handling of
     such inquiries. Participated with the FDIC’s group of Public Service Providers to share information on
     inquiries and complaints received, identify common trends, and determine how best to respond to
     public concerns.
7    Coordinated with the Assistant Inspectors General for Investigations at the Department of the
     Treasury and the FRB to leverage resources by planning joint investigative work.
8    Coordinated with counterparts at the Department of the Treasury, FRB, and National Credit Union
     Administration to efficiently and effectively carry out multiple assignments involving the other
     regulators in accordance with both HR 2056 and a request from the Chairman of the Senate Banking
     Committee.
9    Reiterated the Corporation’s social media policy to OIG staff to ensure responsible use of new social
     communication forums and highlighted particular risks and concerns specific to OIG staff using such
     media.
10   Updated and posted the OIG’s Emergency Response Quick Reference Guides to better ensure the
     physical safety and security of all OIG staff in emergency situations.


             Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and
                                    Other Projects and Operations
1    Continued to implement the OIG’s Quality Assurance Plan for October 2010–March 2013 to ensure
     quality in all audit and attestation engagement work and evaluations, in keeping with government
     auditing standards and Quality Standards for Inspection and Evaluation. Issued two quality control
     reviews—one on contracted audits of risk-sharing agreements and the other a review of selected
     assignments to ensure compliance with auditing standards and other selected OIG controls.
2    Issued our peer review of the investigative operations of the National Aeronautics and Space Adminis-
     tration OIG as part of the IG community’s peer review processes for investigations.
3    Oversaw contracts to qualified firms to provide audit and evaluation services to the OIG to enhance
     the quality of our work and the breadth of our expertise as we conduct audits and evaluations, and
     closely monitored contractor performance.
4    Continued use of the IG’s feedback form to assess time, cost, and overall quality and value of audits
     and evaluations.
5    Relied on OIG Counsel’s Office to provide legal advice and counsel to teams conducting material loss
     and other such reviews, resolution and receivership-related work, assignments in connection with HR
     2056, and other audits and evaluations, and to support investigations of financial institution fraud and
     other criminal activity, in the interest of ensuring legal sufficiency and quality of all OIG work.
6    Coordinated the IG community’s audit peer review activities for OIGs government-wide as part of our
     leadership of the CIGIE Audit Committee to ensure a consistent and effective peer review process and
     quality in the federal audit function.
7    Revised and issued a new policy on public release of OIG products to ensure transparency of OIG
     efforts and corresponding results.
8    Updated the OIG’s Hotline Web page to add new information and alerts. Also added a downloadable
     Hotline poster for use by contractors and others in efforts to prevent fraud, waste, and abuse and
     ensure integrity in FDIC operations and programs.
9    Reviewed and updated a number of OIG internal policies related to audit, evaluation, investigation,
     and management operations of the OIG to ensure they provide the basis for quality work that is
     carried out efficiently and effectively throughout the office.
10   Monitored and participated in the Corporation’s Plain Writing Act initiative to ensure OIG compliance
     with the intent of the Act.
                                                                                                              43
     Encourage Individual Growth and Strengthen Human Capital Management and Leadership Through
                                 Professional Development and Training
     1   Continued to support a member of the OIG attending a long-term graduate banking school program
         sponsored by the Graduate School of Banking at the University of Wisconsin to enhance the OIG staff
         member’s expertise and knowledge of the banking industry.
     2   Employed college interns on a part-time basis in the OIG to provide assistance to the OIG.
     3   Supported individuals seeking certified public accounting certifications by underwriting certain study
         program and examination costs and supported others in pursuit of qualifications such as certified
         fraud examiners, certified government financial managers, and certified information systems auditors.
     4   Continued involvement in the IG community’s introductory auditor training sessions designed to
         provide attendees with an overall introduction to the community and enrich their understanding of
         fundamental aspects of auditing in the federal environment. Devoted resources to teaching or facili-
         tating various segments of the training.
     5   Enrolled OIG staff in several different FDIC Leadership Development Programs to enhance their lead-
         ership capabilities.
     6   Reinstituted the OIG’s Mentoring Program to pair mentors and mentorees as a means of developing
         and enriching both parties in the relationship and enhancing contributions of OIG staff to the mission
         of the OIG.
     7   Sponsored lunch-time Webinars on a variety of topics relevant to the OIG in the interest of providing
         additional opportunities for professional development for OIG staff.



                           Foster Good Client, Stakeholder, and Staff Relationships
     1   Maintained congressional working relationships by briefing and communicating with various
         Committee staff on issues of interest to them; providing our Semiannual Report to the Congress for
         the 6-month period ending September 30, 2011; notifying interested congressional parties regarding
         the OIG’s completed audit and evaluation work; attending or monitoring FDIC-related hearings on
         issues of concern to various oversight committees; and coordinating with the Corporation’s Office of
         Legislative Affairs on issues of mutual interest.
     2   Communicated with the Acting Chairman, the FDIC’s internal Director and Chair of the FDIC Audit
         Committee, the Chief Financial Officer, and other senior FDIC officials through the IG’s regularly sched-
         uled meetings with them and through other forums.
     3   Participated in numerous outreach efforts with such external groups as the American Institute of
         Certified Public Accountants, Illinois Bankers Association, American Conference Institute, and inter-
         national visitors hosted by the FDIC, to provide general information regarding the OIG and share
         perspectives on issues of mutual concern and importance to the financial services industry.
     4   Held quarterly meetings with FDIC Division Directors and other senior officials to keep them apprised
         of ongoing OIG reviews, results, and planned work.
     5   Kept RMS, DRR, the Legal Division, and other FDIC program offices informed of the status and results
         of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
         program offices of recent actions in OIG cases and providing Office of Investigations’ quarterly reports
         to RMS, DRR, the Legal Division, and the Acting Chairman’s Office outlining activity and results in our
         cases involving closed and open banks.
     6   Participated at FDIC Audit Committee meetings to present the results of significant completed audits
         and evaluations for consideration by Committee members.




44
7    Reviewed six proposed or revised corporate policies related to, for example, the FDIC’s government-
     sponsored travel card program; its approval requirements for using FDIC funds for conferences,
     meetings, and symposiums; and benefits received in the course of official travel. Made substantive
     suggestions on the FDIC’s privacy impact assessment requirements policy and suggestions to other
     policies to increase clarity and specificity.
8    Supported the IG community by having the IG serve as Chair of the CIGIE Audit Committee and
     coordinating the activities of that group, including advising on the introductory auditor training and
     oversight of the community’s audit peer review process and scheduling; attending monthly CIGIE
     meetings and participating in Investigations Committee, Council of Counsels to the IGs, and Profes-
     sional Development Committee meetings; commenting on proposed legislation through the Legisla-
     tive Committee; and providing support to the IG community’s investigative meetings.
9    Met regularly and communicated with representatives of the OIGs of the federal banking regulators
     and others (FRB, Department of the Treasury, National Credit Union Administration, Securities and
     Exchange Commission, Farm Credit Administration, Commodity Futures Trading Commission, Federal
     Housing Finance Agency, Export-Import Bank, SIGTARP, Department of Housing and Urban Devel-
     opment) to discuss audit and investigative matters of mutual interest and leverage knowledge and
     resources. Participated on CIGFO, as established by the Dodd-Frank Act, with the IGs from most of
     the above-named agencies, a Council on which the FDIC IG currently serves as Vice Chair. Led CIGFO
     Working Group to review the Financial Stability Oversight Council’s security controls over non-public
     information.
10   Responded, along with others in the IG community, to Senators Grassley’s and Coburn’s semiannual
     request for information on closed investigations, evaluations, and audits that were not disclosed to
     the public.
11   Coordinated with the Department of Justice and U.S. Attorneys’ Offices throughout the country in the
     issuance of press releases announcing results of cases with FDIC OIG involvement.


                               Enhance OIG Risk Management Activities
1    Continued to coordinate with the Corporation’s Chief Risk Officer as he established his office and
     function at the FDIC to help ensure that the OIG complements the work of his office, the Division of
     Finance’s Corporate Management Control, and division-level internal review and control staffs to limit
     the Corporation’s risk exposure.
2    Participated regularly at corporate meetings of the National Risk Committee and other senior-level
     management meetings to monitor emerging risks at the Corporation and tailor OIG work accordingly.
3    Provided the OIG’s 2011 assurance letter to the FDIC Acting Chairman, under which the OIG provides
     assurance that it has made a reasonable effort to meet the internal control requirements of the
     Federal Managers’ Financial Integrity Act, OMB A-123, and other key legislation.
4    Continued to monitor the management and performance challenge areas that we identified at the
     FDIC, in accordance with the Reports Consolidation Act of 2000 as we conducted audits, evalua-
     tions, and investigations: Carrying Out New Resolution Authority, Resolving Failed Institutions and
     Managing Receiverships, Ensuring and Maintaining the Viability of the Deposit Insurance Fund,
     Ensuring Institution Safety and Soundness Through an Effective Examination and Supervision
     Program, Protecting and Educating Consumers and Ensuring an Effective Compliance Program, and
     Effectively Managing the FDIC Workforce and Other Corporate Resources.
5    Provided the OIG’s perspectives on the risk of fraud at the FDIC. We did so in response to the Govern-
     ment Accountability Office’s responsibility under Statement of Auditing Standards No. 99, Consider-
     ation of Fraud in Financial Statement Audits.




                                                                                                            45
 Cumulative Results (2-year period)


                        Nonmonetary Recommendations
       April 2010 – September 2010                                                              43
       October 2010 – March 2011                                                                58
       April 2011 – September 2011                                                              13
       October 2011 – March 2012                                                                17




 Products Issued and Investigations Closed

                                                                                                     50
     L E G E N D
                                                                                                     45
     •   4/10 - 9/10                                                                  41             40
     •   10/10 - 3/11                                                                                35
                                                                                           34
     •   4/11 - 9/11                                                                                 30
                                28
     •   10/11 - 3/12                25
                                                                                                     25
                                                                            20
                                                                                                     20
                                          15*
                                                                                                     15
                                                13                               11                  10
                                                                                                      5
                                                                                                      0
                                 Audits &                                  Investigations
                                Evaluations
                          *Includes two audit-related memoranda.



 Fines, Restitution, and Monetary Recoveries
 Resulting from OIG Investigations (in millions)

 L E G E N D                                                                                         500

                                                                              403.3                  400
       4/10 - 9/10
       10/10 - 3/11
                                                                                                     300
                                                         *See Note Below




       4/11 - 9/11
       10/11 - 3/12                              248.2
                                                                                                     200
                                      160.1
                                                                                                     100

                                                                                                       0
                          * For the period 04/11 – 09/11
                            Fines, Restitution, and Monetary Recoveries
                            totaled $3.7 billion.




46
Reporting Requirements
Index of Reporting Requirements – Inspector General Act of 1978, as amended



 Reporting Requirements                                                                                          Page

 Section 4(a)(2): Review of legislation and regulations                                                           48

 Section 5(a)(1): Significant problems, abuses, and deficiencies                                                9-40

 Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies                9-40

 Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                  49
 action has not been completed

 Section 5(a)(4): Matters referred to prosecutive authorities                                                      8

 Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                        52

 Section 5(a)(6): Listing of audit reports                                                                        50

 Section 5(a)(7): Summary of particularly significant reports                                                   9-40

 Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                  51
 questioned costs

 Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                  51
 recommendations that funds be put to better use

 Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                  52
 has been made

 Section 5(a)(11): Significant revised management decisions during the current reporting period                   52

 Section 5(a)(12): Significant management decisions with which the OIG disagreed                                  52




Evaluation report statistics are included in the tables that follow, in accordance with the Inspector General Reform Act of 2008.




                                                                                                                             47
                                                                                                                             47
Appendix 1: Information Required by the
Inspector General Act of 1978, as Amended
Review of Legislation and Regulations
The FDIC OIG’s review of legislation and regulations during the past 6-month period involved
the following activities:
     •	We analyzed Public Law 111-28 (formerly H.R. 2056)--which requires the FDIC IG to study
       various aspects of depository failures, including the impact of regulatory actions--with
       an eye towards assisting the OIG to implement that statute. The statute requires the IG
       to appear before the Senate Committee on Banking, Housing and Urban Affairs and the
       House Committee on Financial Services within 150 days of publishing the report, which is
       required to be completed by January 3, 2013.
     •	We analyzed and commented on the proposed Financial Institutions Examination Fairness
       and Reform Act, H.R. 3461, and the companion bill, S. 2160. The bill would, among other
       things, establish an ombudsman at the Federal Financial Institutions Examination Council
       with jurisdiction to review examination results of the federal financial regulators.
     •	We worked with the CIGIE Legislation Committee’s Subcommittee on Information Tech-
       nology Legislation to analyze and/or comment on proposed legislation addressing cyber-
       security-related issues, to include revisions to FISMA. These legislative proposals included:
           ♦♦ S. 2151, the Strengthening and Enhancing Cybersecurity by Using Research,
       	      Education, Information, and Technology Act of 2012
           ♦♦ S. 2105, the Cybersecurity Act of 2012
           ♦♦ S. 413, the Cybersecurity and Internet Freedom Act of 2011
           ♦♦ H.R. 1136, the Executive Cyberspace Coordination Act of 2011
           ♦♦ H.R. 1349, and S. 717 regarding publication of agency information on the Internet
     •	In addition, we noted the introduction of S. 1732, the Privacy Act Modernization for the
       Information Age Act of 2011, and the enactment of Public Law 112-55, the Consolidated and
       Further Continuing Appropriations Act, 2011, which established an Inspector General for the
       U.S. Commission on Civil Rights.
     •	Counsel’s Office worked within the OIG to implement Executive Order 13589, Promoting
       Efficient Spending, which required agencies and IGs to control certain expenses such as
       those for office conferences and employee travel and relocation.




48
Significant Recommendations from Previous Semiannual Reports
on Which Corrective Actions Have Not Been Completed
This table shows the corrective actions management has agreed to implement but has not completed, along with asso-
ciated monetary amounts. In some cases, these corrective actions are different from the initial recommendations made
in the audit reports. However, the OIG has agreed that the planned actions meet the intent of the initial recommenda-
tions. The information in this table is based on (1) information supplied by the FDIC’s Corporate Management Control,
Division of Finance and (2) the OIG’s determination of closed recommendations. Recommendations are closed when (a)
Corporate Management Control notifies the OIG that corrective actions are complete or (b) in the case of recommen-
dations that the OIG determines to be particularly significant, after the OIG confirms that corrective actions have been
completed and are responsive. The four recommendations from four reports involve monetary amounts of over $31.4
million and improvements in operations and programs. Corporate Management Control has categorized the status of
the recommendations as follows:

Management Action in Process: (four recommendations from four reports)
Management is in the process of implementing the corrective action plan, which may include modifications to policies,
procedures, systems, or controls; issues involving monetary collection; and settlement negotiations in process.

Table I: Significant Recommendations from Previous Semiannual Reports on Which Corrective
	        Actions Have Not Been Completed

                                                           Significant
                                                                                        Brief Summary of Planned Corrective Actions and
  Report Number, Title & Date                              Recommendation
                                                                                        Associated Monetary Amounts
                                                           Number

AUD-11-001                                                           12                Complete the design and implementation of an agency-
                                                                                       wide continuous monitoring program that addresses
Independent Evaluation of the FDIC’s
                                                                                       continuous monitoring strategies for FDIC information
Information Security Program – 2010
                                                                                       systems. While the FDIC has made meaningful progress in
November 8, 2010                                                                       addressing this recommendation, designing and imple-
                                                                                       menting such a program is a multi-year effort that the
                                                                                       FDIC expects to complete by the end of 2012.
AUD-11-004                                                           1*                Disallow the unsupported loss claims. (Questioned Costs
                                                                                       of $7,549,153, which is 80 percent of $9,436,441 in ques-
FDIC’s Loss Share Agreements with an
                                                                                       tioned loss claims.)
Acquiring Institution
January 7, 2011
AUD-11-009                                                            1                Review the acquiring institution’s analysis pertaining to
                                                                                       $29,825,247 in questioned commercial loan charge-off
FDIC’s Loss Share Agreements with an
                                                                                       loss claims (including unsupported questioned costs of
Acquiring Institution
                                                                                       $23,860,198, which is 80 percent of the $29,825,247) and
June 10, 2011                                                                          disallow any unsupported claims based on the results of
                                                                                       the review.
EVAL-11-006                                                           1                To improve the effectiveness of the Prompt Regula-
                                                                                       tory Action framework and to meet the section 38 and
Prompt Regulatory Action
                                                                                       39 goals of identifying problems early and minimizing
Implementation
                                                                                       losses to the DIF, the FDIC, FRB, and OCC agency heads
September 30, 2011                                                                     will review the matters for consideration presented in
                                                                                       this report and work to determine whether the Prompt
                                                                                       Regulatory Action legislation or implementing regulations
                                                                                       should be modified.
* The OIG has not yet evaluated management’s actions in response to the OIG recommendation.
49                                                                                                                                                 49
 Appendix 1: Information Required by the
 Inspector General Act of 1978, as Amended
 (continued)
     Table II: Audit and Evaluation Reports Issued by Subject Area

                      Audit and Evaluation Report                              Questioned Costs       Funds Put to
      Number and Date                          Title                         Total      Unsupported    Better Use
     Supervision
     AUD-12-003              Material Loss Review of Atlantic
     December 16, 2011       Southern Bank, Macon, Georgia
     AUD-12-006              Material Loss Review of Colorado
     February 17, 2012       Capital Bank, Castle Rock, Colorado
     AUD-12-007              Material Loss Review of Bank of
     February 17, 2012       Choice, Greeley, Colorado
     Receivership Management
     EVAL-12-001             FDIC’s Acquisition and Management of          $9,803,488
     October 6, 2011         Securities Obtained through Resolu-
                             tion and Receivership Activities
     AUD-12-001              The FDIC’s Shared-Loss Agreements            $16,630,808    $6,661,415
     October 25, 2011        with Banco Popular de Puerto Rico,
                             San Juan, Puerto Rico
     AUD-12-004              FDIC’s Qualification Process for
     December 22, 2011       Private Capital Investors Interested
                             in Acquiring or Investing in Failed
                             Insured Depository Institutions
     EVAL-12-002             FDIC’s Monitoring of Shared-Loss
     February 17, 2012       Agreements
     AUD-12-008              The FDIC’s Shared-Loss Agreements             $434,528
     March 30, 2012          with BankUnited
     Resources Management
     AUD-12-002              Independent Evaluation of the FDIC’s
     October 31, 2011        Information Security Program - 2011
     AUD-12-005              FDIC’s Data Submissions through the
     January 11, 2012        Governmentwide Financial Report
                             System as of September 30, 2011
     EVAL-12-004             Status of the Transfer of Office of Thrift
     March 21, 2012          Supervision Functions
     EVAL-12-003             National Owned Real Estate Manage-            $398,227        $57,226
     March 23, 2012          ment and Marketing Services Contract
                             with CB Richard Ellis, Inc.
     EVAL-12-005             FDIC Conference-Related Expenses
     March 30, 2012          and Activities
     Totals for the Period                                                $27,267,051   $6,718,641




50
    Appendix 1: Information Required by the
    Inspector General Act of 1978, as Amended
    (continued)
    Table III: Audit and Evaluation Reports Issued with Questioned Costs

                                                                                                                      Questioned Costs
                                                                                  Number
                                                                                                                 Total                 Unsupported
        A.	 For which no management decision has been                                    0                         $0                          $0
        	 made by the commencement of the reporting
        	period.
        B. Which were issued during the reporting period.                                4                     $27,267,051                 $6,718,641
        Subtotals of A & B                                                               4                   $27,267,051                 $6,718,641
        C.	 For which a management decision was made                                     4                     $27,267,051                 $6,718,641
        	 during the reporting period.
        	 (i) dollar value of disallowed costs.                                          4                     $26,910,839                 $6,680,877
        	 (ii) dollar value of costs not disallowed.                                    1*                         $356,212                    $37,764
        D.	 For which no management decision has been                                    0                         $0                          $0
        	 made by the end of the reporting period.
        	 Reports for which no management decision                                       0                         $0                          $0
        	 was made within 6 months of issuance.

    *
	       The one report not disallowed is also included in the line for costs disallowed because management did not agree with some of the questioned costs.




        Table IV: Audit and Evaluation Reports Issued with Recommendations for Better Use of Funds

                                                                                                             Number                Dollar Value
        A.	 For which no management decision has been made by the                                                 0                       $0
        	 commencement of the reporting period.
        B. Which were issued during the reporting period.                                                         0                       $0
        Subtotals of A & B                                                                                        0                       $0
        C. For which a management decision was made during the reporting                                          0                       $0
        	period.
        	 (i)	 dollar value of recommendations that were agreed to by                                             0                       $0
        		 management.
        		      - based on proposed management action.                                                            0                       $0
        		      - based on proposed legislative action.                                                           0                       $0
        	 (ii)	 dollar value of recommendations that were not agreed to by                                        0                       $0
        		 management.
        D.	For which no management decision has been made by the end of                                           0                       $0
        	 the reporting period.
        	 Reports for which no management decision was made within                                                0                       $0
        	 6 months of issuance.




                                                                                                                                                              51
                                                                                                                                                              51
 Appendix 1: Information Required by the
 Inspector General Act of 1978, as Amended
 (continued)


     Table V: Status of OIG Recommendations Without Management Decisions
     During this reporting period, there were no recommendations more than 6 months old without
     management decisions.

     Table VI: Significant Revised Management Decisions
     During this reporting period, there were no significant revised management decisions.

     Table VII: Significant Management Decisions with Which the OIG Disagreed
     During this reporting period, there were no significant management decisions with which the OIG disagreed.

     Table VIII: Instances Where Information Was Refused
     During this reporting period, there were no instances where information was refused.




52
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)
 FDIC OIG Review Activity for the Period October 1, 2011 through March 31, 2012 for Failures Causing Losses to
 the DIF of Less than $200 Million (or less than $150 million if occurring after December 31, 2011)
                                        Estimated                                          Unusual
                                         Loss to        Grounds Identified by the
                                                                                        Circumstances   Reason for    Due Date
                             Closing       DIF*          State Bank Supervisor
    Institution Name                                                                      Warranting     In-Depth         or
                              Date                         for Appointing the
                                         (Dollars in                                       In-Depth       Review     Date Issued
                                                            FDIC as Receiver
                                          millions)                                        Review?
 Failure Review Activity – Updated From Previous Semiannual Reports
 First Choice Community                                The bank was critically under-
                        4/29/11             $92.4                                            No            N/A          N/A
 Bank (Dallas, Georgia)                                capitalized.
 Community Central
                                                       The bank was operating in an
 (Mount Clemens,            4/29/11        $183.2                                            No            N/A          N/A
                                                       unsafe & unsound condition.
 Michigan)
 First Georgia Banking
 Company                    5/20/11        $156.5      The bank was insolvent.               No            N/A          N/A
 (Franklin, Georgia)
 First Heritage Bank
 (Snohomish,                5/27/11         $34.9      The bank was insolvent.               No            N/A          N/A
 Washington)
 McIntosh State Bank                                   The bank was critically under-
                            6/17/11         $82                                              No            N/A          N/A
 (Jackson, Georgia)                                    capitalized.
 First Commercial Bank
                                                       The bank was imminently
 of Tampa Bay               6/17/11         $30.5                                            No            N/A          N/A
                                                       insolvent.
 (Tampa, Florida)
 Mountain Heritage Bank
                        6/24/11             $43.1      The bank was insolvent.               No            N/A          N/A
 (Clayton, Georgia)
 High Trust Bank                                       The bank was critically under-
                            7/15/11         $66                                              No            N/A          N/A
 (Stockbridge, Georgia)                                capitalized.
 First Peoples Bank                                    The bank was imminently
                             7/15/11          $7.4                                           No            N/A          N/A
 (Port Saint Lucie, Florida)                           insolvent.
 CreekSide Bank                                        The bank was critically under-
                            9/2/11          $29.3                                            No            N/A          N/A
 (Woodstock, Georgia)                                  capitalized.
 First International Bank
                            9/30/11         $55.6      The bank was insolvent.               No            N/A          N/A
 (Plano, Texas)
 New Reviews
 Signature Bank                                        The bank’s insolvency was
                            7/8/11          $22.3                                            No            N/A          N/A
 (Windsor, Colorado)                                   inevitable.
 One Georgia Bank                                      The bank was unable to main-
                            7/15/11         $44.4                                            No            N/A          N/A
 (Atlanta, Georgia)                                    tain minimum capital levels.
                                                       The bank was operating in an
 Summit Bank
                            7/15/11         $11.3      unsafe and unsound condi-             No            N/A          N/A
 (Prescott, Arizona)
                                                       tion.
 Southshore Community
 Bank                    7/22/11              $8.3     The bank was insolvent.               No            N/A          N/A
 (Apollo Beach, Florida)
* As first reported by the FDIC Division of Finance to the OIG.

                                                                                                                              53
                                                                                                                              53
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)
 FDIC OIG Review Activity for the Period October 1, 2011 through March 31, 2012 for Failures Causing Losses to
 the DIF of Less than $200 Million (or less than $150 million if occurring after December 31, 2011)
                                         Estimated                                         Unusual
                                          Loss to        Grounds Identified by the
                                                                                        Circumstances   Reason for    Due Date
                             Closing        DIF*          State Bank Supervisor
     Institution Name                                                                     Warranting     In-Depth         or
                              Date                          for Appointing the
                                         (Dollars in                                       In-Depth       Review     Date Issued
                                                             FDIC as Receiver
                                          millions)                                        Review?
 New Reviews
 Public Savings Bank
                                                       The bank was operating in an
 (Huntingdon Valley,         8/18/11        $11                                              No            N/A          N/A
                                                       unsafe and unsound condition.
 Pennsylvania)
 First Choice Bank                                     The bank was operating in an
                             8/19/11        $31                                              No            N/A          N/A
 (Geneva, Illinois)                                    unsafe and unsound condition.
 Patriot Bank of Georgia                               The bank was unable to main-
                             9/2/11         $46.5                                            No            N/A          N/A
 (Cumming, Georgia)                                    tain minimum capital levels.
 Citizens Bank of
                                                       The bank was operating in an
 Northern California         9/23/11        $39                                              No            N/A          N/A
                                                       unsafe and unsound condition.
 (Nevada City, California)
 Sun Security Bank                                     The bank’s insolvency was
                             10/7/11       $118.3                                            No            N/A          N/A
 (Ellington, Missouri)                                 inevitable.
 The RiverBank                                         The bank was operating in an
                             10/7/11        $71.4                                            No            N/A          N/A
 (Wyoming, Minnesota)                                  unsafe and unsound condition.
 Decatur First Bank                                    The bank was critically under-
                             10/21/11       $32.6                                            No            N/A          N/A
 (Decatur, Georgia)                                    capitalized.
 Old Harbor Bank
                             10/21/11       $39.3      The bank was insolvent.               No            N/A          N/A
 (Clearwater, Florida)
 Reviews in Process
 Blue Ridge Savings
 Bank, Inc. (Asheville,      10/14/11      $37.9                          ♦
 North Carolina)
 Country Bank
                             10/14/11      $66.3                          ♦
 (Aledo, Illinois)
 Piedmont Community
                             10/14/11      $71.6                          ♦
 Bank (Gray, Georgia)
 First State Bank
                             10/14/11      $45.8                          ♦
 (Cranford, New Jersey)
 Community Capital
 Bank                        10/21/11      $62                        ♦
 (Jonesboro, Georgia)
 All American Bank
                             10/28/1        $6.5                      ♦
 (Des Plaines, Illinois)
 Mid City Bank, Inc.
                             11/4/11        $12.7                     ♦
 (Omaha, Nebraska)
 SunFirst Bank
                             11/4/11        $49.7                     ♦
 (Saint George, Utah)
* As first reported by the FDIC Division of Finance to the OIG.
♦ Failure review pending or ongoing as of the end of the reporting period.


54
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)
 FDIC OIG Review Activity for the Period October 1, 2011 through March 31, 2012 for Failures Causing Losses to
 the DIF of Less than $200 Million (or less than $150 million if occurring after December 31, 2011)
                                         Estimated                                      Unusual
                                          Loss to        Grounds Identified by the
                                                                                     Circumstances   Reason for    Due Date
                             Closing        DIF*          State Bank Supervisor
     Institution Name                                                                  Warranting     In-Depth         or
                              Date                          for Appointing the
                                         (Dollars in                                    In-Depth       Review     Date Issued
                                                             FDIC as Receiver
                                          millions)                                     Review?
 Reviews in Process
 Community Bank of
 Rockmart                    11/10/11       $14.5                   ♦
 (Rockmart, Georgia)
 Central Progressive
 Bank                        11/18/11       $58                     ♦
 (Lacombe, Louisiana)
 Polk County Bank
                             11/18/11       $12                     ♦
 (Johnston, Iowa)
 Premier Community
 Bank of the Emerald
                             12/16/11       $35.5                   ♦
 Coast
 (Crestview, Florida)
 Central Florida State
                              1/20/12       $24.4                     ♦
 Bank (Belleview, Florida)
 First Guaranty Bank
 and Trust Company of
                              1/27/12       $82                     ♦
 Jacksonville
 (Jacksonville, Florida)
 Patriot Bank Minnesota
                              1/27/12       $32.6                   ♦
 (Forest Lake, Minnesota)
 Central Bank of Georgia
                              2/24/12       $67.4                   ♦
 (Ellaville, Georgia)
 Global Commerce Bank
                               3/2/12       $20.9                   ♦
 (Doraville, Georgia)
 New City Bank
                               3/9/12       $20.4                   ♦
 (Chicago, Illinois)
 Covenant Bank & Trust
                              3/23/12       $35                     ♦
 (Rock Spring, Georgia)
 Premier Bank
                              3/23/12       $67.1                   ♦
 (Wilmette, Illinois)
 Fidelity Bank
                              3/30/12       $95.8                   ♦
 (Dearborn, Michigan)

* As first reported by the FDIC Division of Finance to the OIG.
♦ Failure review pending or ongoing as of the end of the reporting period.




                                                                                                                           55
                                                                                                                           55
 Appendix 3: Peer Review Activity
 (required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)

 Section 989C of the Dodd-Frank Act contains additional semiannual reporting requirements pertaining to peer review reports.
 Federal Inspectors General are required to engage in peer review processes related to both their audit and investigative
 operations. In keeping with Section 989C, the FDIC OIG is reporting the following information related to its peer review
 activities. These activities cover our role as both the reviewed and the reviewing OIG and relate to both audit and investigative
 peer reviews.

 Audit Peer Reviews
 On the audit side, on a 3-year cycle, peer reviews are conducted of an OIG audit organization’s system of quality control in accor-
 dance with the CIGIE Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices of Inspector General,
 based on requirements in the Government Auditing Standards (Yellow Book). Federal audit organizations can receive a rating of
 pass, pass with deficiencies, or fail.
   •	The FDIC OIG was the subject of a peer review of
     its audit organization during an earlier reporting           Definition of Audit Peer Review
     period. The Railroad Retirement Board OIG                                     Ratings
     conducted the review and issued its system
                                                              Pass: The system of quality control for the audit
     review report on September 21, 2010. In the
                                                              organization has been suitably designed and
     Railroad Retirement Board OIG’s opinion, the
                                                              complied with to provide the OIG with reason-
     system of quality control for our audit organiza-
                                                              able assurance of performing and reporting in
     tion in effect for the year ended March 31, 2010,
                                                              conformity with applicable professional stan-
     had been suitably designed and complied with
                                                              dards in all material respects.
     to provide our office with reasonable assurance
     of performing and reporting in conformity with           Pass with Deficiencies: The system of quality
     applicable professional standards in all material        control for the audit organization has been suit-
     respects. We received a peer review rating of            ably designed and complied with to provide the
     pass.                                                    OIG with reasonable assurance of performing
                                                              and reporting in conformity with applicable
     The report’s accompanying letter of comment
                                                              professional standards in all material respects
     contained five recommendations that, while
                                                              with the exception of a certain deficiency or
     not affecting the overall opinion, were designed
                                                              deficiencies that are described in the report.
     to further strengthen the system of quality
     control in the FDIC OIG Office of Audits.                Fail: The review team has identified significant
                                                              deficiencies and concludes that the system
 All actions taken in response to the Railroad Retire-
                                                              of quality control for the audit organization is
 ment Board’s recommendations were completed by
                                                              not suitably designed to provide the reviewed
 February 23, 2011.
                                                              OIG with reasonable assurance of performing
 This peer review report (the system review report            and reporting in conformity with applicable
 and accompanying letter of comment) is posted on             professional standards in all material respects
 our Web site at www.fdicig.gov                               or the audit organization has not complied
                                                              with its system of quality control to provide
 FDIC OIG Peer Review of the Smithsonian                      the reviewed OIG with reason assurance of
 Institution OIG                                              performing and reporting in conformity with
 During the past reporting period, the FDIC OIG               applicable professional standards in all material
 completed a peer review of the audit operations of           respects.
 the Smithsonian Institution (SI), and we issued our
 final report to that OIG on September 21, 2011. We         with applicable professional standards in all
 reported that in our opinion, the system of quality        material respects. The SI OIG received a peer
 control for the audit organization of the SI OIG, in       review rating of pass.
 effect for the 15-month period ended March 31,
 2011, had been suitably designed and complied              As is customary, we also issued a Letter of Comment,
 with to provide the SI OIG with reasonable assur-          dated September 21, 2011, that set forth findings
 ance of performing and reporting in conformity             and recommendations that were not considered
                                                            to be of sufficient significance to affect our opinion
56
Appendix 3: Peer Review Activity (continued)
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)

expressed in the system review report. We made 11         assurance of conforming with professional stan-
recommendations, with which the SI OIG agreed.            dards in the conduct of FDIC OIG investigations.
SI OIG indicated it would complete all corrective         DOI issued a letter of observations but made no
actions related to the findings and recommenda-           recommendations in that letter.
tions no later than March 31, 2012. Our findings and     •	The FDIC OIG conducted a peer review of the
recommendations related to the following areas:            investigative function of the National Aero-
standards followed on desk reviews, statements of          nautics and Space Administration OIG during
independence for referencers, disciplinary mecha-          June through August 2011. We issued our final
nism for reporting personal impairments, reviews of        report to NASA OIG on November 10, 2011.
continuing professional education data, reporting          We reported that, in our opinion, the system of
whether audit results can be projected, internal           internal safeguards and management proce-
quality assurance program enhancements, and SI             dures for the investigative function of the NASA
OIG’s letter related to the annual financial state-        OIG in effect for the period ending December
ments audit. SI OIG has posted its peer review report      31, 2010 was in full compliance with the quality
(the system review report and accompanying letter          standards established by CIGIE and Attorney
of comment) on its Web site at www.si.edu/oig/.            General Guidelines. We also issued a letter of
For the current semiannual reporting period, the SI        observations but made no recommendations in
OIG is reporting completed actions on 4 of our 11          that letter.
recommendations. SI OIG is also currently updating       •	As of the end of the current reporting period,
its audit manual to reflect the FY 2011 revision to        our office was coordinating with representatives
government auditing standards and recommenda-              from the Department of Energy OIG who will be
tions from our peer review.                                conducting a peer review of our investigative
                                                           function beginning in June 2012.
Investigative Peer Reviews
Quality assessment peer reviews of investigative
operations are conducted on a 3-year cycle as well.
Such reviews result in a determination that an orga-
nization is “in compliance” or “not in compliance”
with relevant standards. These standards are based
on Quality Standards for Investigations and appli-
cable Attorney General guidelines. The Attorney
General guidelines include the Attorney General
Guidelines for Offices of Inspectors General with
Statutory Law Enforcement Authority (2003), Attorney
General Guidelines for Domestic Federal Bureau of
Investigation Operations (2008), and Attorney General
Guidelines Regarding the Use of Confidential Infor-
mants (2002).
  •	In 2009, the FDIC OIG was the subject of a peer
    review conducted by the Department of the
    Interior (DOI) OIG. DOI issued its final report to
    us on September 9, 2009. In DOI’s opinion, the
    system of internal safeguards and management
    procedures for the investigative function of the
    FDIC OIG in effect for the period October 1, 2007
    through September 30, 2008, was in compli-
    ance with the quality standards established by
    CIGIE and the Attorney General guidelines. These
    safeguards and procedures provided reasonable


                                                                                                              57
C           Congratulations and Farewell
                                                         F
Retirements
                           Tom McDade, Special                                     Phil Robertson, Senior
                           Agent in Charge, retired                                Special Agent, retired
                           from the FDIC after more                                from the FDIC after more
                           than 20 years of service to                             than 20 years of service
                           the Corporation. He joined                              to the Corporation. He
                           the Resolution Trust Corpo-                             joined the RTC OIG in its
                           ration (RTC) in December                                Baton Rouge Office in
                           1991 following a successful                             December 1991 as a Senior
                           career in the United States                             Special Agent following
                           Secret Service. Upon the                                a successful career in
                           RTC’s sunset in 1995, he                                the United States Secret
transitioned to the FDIC OIG as a senior criminal        Service. Thereafter, he transferred to the RTC’s
investigator in the Atlanta region. He was later         Atlanta Regional Office, and upon the RTC’s sunset
promoted to Special Agent in Charge of the South-        in 1995, he transitioned to the FDIC OIG and since
east Region’s Atlanta Office, and from 2001-2007,        then continued an impressive investigative career.
he excelled in that role. In 2007, his transfer to
                                                         Of special note, Phil was the lead agent on the
Dallas as Special Agent in Charge gave him further
                                                         First National Bank of Keystone case. Not only
opportunities to lead the OIG’s investigators in
                                                         did he help bring about multiple prosecutions
our Southwest Regional office, a role he carried
                                                         in that case, he also shared the lessons learned
out with distinction right up to his retirement.
                                                         from that failure with countless groups by way
Of special note, Tom supervised some of the largest,     of highly informative and creative presentations
most complex, and most significant cases in the          throughout the country. He also served with
history of the FDIC OIG, including the Keystone          distinction on the New England Bank Fraud Task
Bank failure case, Best Bank failure case, Hamilton      Force. As Assistant Special Agent in Charge of
Bank failure case, Perlman case, Community               the Atlanta Regional Office, he supervised many
Bank of Blountsville case, Connecticut Bank of           complex and successful criminal investigations.
Commerce failure case, and the Roman Mava-
                                                         Phil served as an outstanding representative of
shev and Property Cash mortgage fraud cases.
                                                         the OIG over the past years by helping to foster
He also served as an outstanding representative          constructive working relationships with FDIC
of the OIG over the past years by developing and         regional management, U.S. Attorneys’ Offices,
fostering constructive working relationships with        and fellow law enforcement groups. Most
the FDIC regional management, U.S. Attorneys’            recently, with respect to the failures of three
Offices, and fellow law enforcement groups. He did       large Puerto Rican banks, he directed the OIG’s
an excellent job coordinating with both the FDIC’s       investigative presence and served as liaison with
Division of Supervision and Consumer Protection          the FDIC’s Division of Resolutions and Receiver-
(now the Division of Risk Management Supervi-            ships and the Legal Division, and with the U.S.
sion) and Division of Resolutions and Receiverships      Attorney’s Office, Federal Bureau of Investiga-
during our nation’s very challenging time of financial   tion, and the Internal Revenue Service.
and economic crisis.
Tom also gave 3 years of service to the United States
Army early on in his career.




58
